1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________________
No. 20-11624
Non-Argument Calendar
[DO NOT PUBLISH]
________________________________
D.C. Docket No. 4:16-cv-00290-WTM-BKE
________________________________
ESTATE OF DEBBIE HELMLY, ET AL.,
Plaintiffs-Appellants,
v.
BETHANY HOSPICE AND PALLIATIVE CARE OF
COASTAL GEORGIA, LLC, F.K.A. BETHANY HOSPICE
OF COASTAL GEORGIA, LLC (BETHANY COASTAL),
BETHANY HOSPICE AND PALLIATIVE CARE,
LLC, F.K.A. BETHANY HOSPICE, LLC (BETHANY
HOSPICE), BETHANY BENEVOLENCE FUND, INC.,
AVA BEST, ET AL.,
Defendants-Appellees.
________________________________
Appeal from the United States District Court for the
Southern District of Georgia
________________________________
April 26, 2021
________________________________
Before MARTIN, NEWSOM, and BRANCH, Circuit
Judges.

2a
PER CURIAM:
In this qui tam action, Debbie Helmly and Jolie
Johnson (the “Relators”) appeal the dismissal of their
complaint. Relators sued Bethany Hospice and Palliative Care, LLC (“Bethany Hospice”) on behalf of the
United States and the State of Georgia, 1 alleging that
Bethany Hospice violated the False Claims Act
(“FCA”), 31 U.S.C. §§ 3729–3733, and the Georgia
False Medicaid Claims Act, O.C.G.A. § 49-4-168.1. In
particular, Relators alleged that Bethany Hospice violated the so-called Anti-Kickback Statute (“AKS”), 42
U.S.C. § 1320a-7b(b), 2 by paying physicians remuneration for Medicare and Medicaid patient referrals. According to Relators, Bethany Hospice submitted false
claims when it billed the government for services provided to illegally-referred patients. Relators further
allege that Bethany Hospice falsely certified compliance with the AKS. Under Rule 9 of the Federal Rules
See 31 U.S.C. § 3730(b)(1) (“A person may bring a civil action
for a violation of section 3729 for the person and for the United
States Government. The action shall be brought in the name of
the Government.”); id. § 3732(b) (“The district courts shall have
jurisdiction over any action brought under the laws of any State
for the recovery of funds paid by a State or local government if
the action arises from the same transaction or occurrence as an
action brought under section 3730.”).
1

2

An entity violates the AKS when it:
knowingly and willfully offers or pays any remuneration (including any kickback, bribe, or rebate) directly or indirectly,
overtly or covertly, in cash or in kind to any person to induce
such person . . . to refer an individual to a person for the
furnishing or arranging for the furnishing of any item or service for which payment may be made in whole or in part under a Federal health care program.

42 U.S.C. § 1320a-7b(b)(2).

3a
of Civil Procedure, Relators were required to plead
with particularity the submission of an actual false
claim to the government. Because Relators failed to do
so, the district court properly dismissed their complaint. Accordingly, we affirm.
I. Background 3
Bethany Hospice provides for-profit hospice care
in Georgia. It operates care facilities in four cities:
Douglas, Thomasville, Waycross, and Valdosta. In
2014, Bethany Hospice opened Bethany Hospice and
Palliative Care of Coastal Georgia, LLC (“Bethany
Coastal”). Relators are former employees of Bethany
Coastal. Helmly was employed as the administrator of
Bethany Coastal from December 2014 until July 2015.
Johnson was employed as a marketer during the same
period.
Although Bethany Coastal was organized as a
separate company from Bethany Hospice and obtained
a different business license number, the two entities
are both owned and operated by Ava Best and Mac
Mackey and share personnel, resources, and management software. According to Relators, Best and
Mackey operated Bethany Coastal “as if it were another facility office of Bethany Hospice.” For that reason, Relators allege that they were “effectively . . . corporate insiders of Bethany Hospice.”
Relators allege that, as corporate insiders, they
learned that Bethany Hospice operated an illegal kickback referral scheme in which Bethany Hospice paid
Relators’ original complaint was filed under seal. After the
United States and the State of Georgia declined to intervene, the
complaint was unsealed. The following facts are taken from Relators’ third amended complaint (the “operative complaint”).
3

4a
doctors in exchange for referring Medicare beneficiaries 4 to Bethany Hospice. Relators further allege that,
after rendering services to the illegally referred patients, Bethany Hospice submitted claims to Medicare
for reimbursement.
In particular, Helmly alleged that when she and
Best were negotiating the terms of Helmly’s employment as administrator of Bethany Coastal, Best offered her compensation based on the kickback scheme.
During those negotiations, Best allegedly told Helmly
that Best “would follow the same protocol to add compensation for . . . Helmly that [Best] used to pay referring doctors for their referrals.” Under that “protocol,”
Helmly could make a below-market ownership investment in Bethany Coastal that would provide “huge returns” based on the number of referred patients.
Helmly further alleged that Best said that she “paid
all the medical directors who owned shares in Bethany
Hospice according to this same formula, and the payments varied depending on the volume of referrals.”
Relators also alleged that, on other occasions, Best
acknowledged to them that the compensation structure was designed to avoid getting caught for FCA violations. Best was formerly employed by Odyssey Hospice—a predecessor to Bethany Hospice. Relators alleged that Odyssey also employed a kickback compensation scheme, Odyssey’s owner was eventually convicted of Medicare Fraud, and Odyssey agreed to a $25
million settlement with the U.S. Department of Justice. According to Relators, Best acknowledged that
Relators allege that the referral scheme involved Medicare
and Medicaid beneficiaries. For simplicity, we will refer only to
Medicare.
4

5a
kickbacks were improper but, because they were “the
most effective way to get referrals,” Best “tried to have
the best of both worlds: paying the kickbacks to referring physicians but hiding or masking them as compensation to medical directors and part owners of
Bethany Hospice.”
Relators alleged that several doctors purchased
ownership interests in Bethany Hospice and were paid
kickbacks for referrals through “a monthly salary, dividends, and/or monthly bonuses.” 5 According to Relators, that compensation was not paid for the fair market value of their work but, rather, “as inducement for
or reward for referrals of patients, which constitute
kickbacks.” Relators’ complaint points to Dr. Tanner
as an example: In 2007, he purchased a 5% interest in
Bethany Hospice for $20,000 and, seven years later, he
sold that interest for $300,000. Relators’ complaint
identifies at least four other doctors (the “Bethany
Hospice doctors”) who are allegedly the primary participants in this compensation scheme.
Relators point to other facts to show that the
scheme was operational and successful. They allege
that, after purchasing an investment in Bethany Hospice, the Bethany Hospice doctors made “nearly all” or
“around 95%” of their patient referrals to Bethany
Hospice. Realtors also allege that they were able to access Bethany Hospice’s internal billing software, Consolo, to confirm that Bethany Hospice tracked each patient admission and the doctor who referred that patient for the purpose of paying those doctors kickbacks.
Relators claim that other Bethany Hospice employees
Relators also allege that, on at least one occasion, Bethany
Hospice offered its doctors a paid family vacation as a kickback.
5

6a
confirmed that Bethany Hospice ran “weekly and
monthly reports” tracking referrals and that “Best
use[d] these reports to determine how much to pay referral sources.”
Relators further alleged that, as a result of the
kickback scheme, Bethany Hospice submitted false
claims for Medicare reimbursement to the government. Relators alleged that “all or nearly all of Bethany Hospice’s patients put under service received coverage from Medicare.” Johnson “had access to the census reports documenting each site’s patients and
which payor paid for the patients’ care.” By accessing
these records, and speaking to some of Bethany Hospice’s billing employees, Johnson allegedly “was able
to find out about the billing and collection from Medicare of the illicit referrals and the submission of bills
for other inappropriate patients.” For her part, Helmly
alleged that she also had access to all billing information and “attended meetings with Ms. Best where
Bethany Hospice and Bethany Coastal management
discussed site productivity and census numbers for all
Bethany Hospice’s and Bethany Coastal’s sites.” And,
relevant here, Relators claim to have discovered that
“all (or nearly all) the hospice patients referred by [the
Bethany Hospice doctors] were Medicare or Medicaid
patients and that Bethany Hospice submitted claims
to the Government for per diem payments for those patients knowing that they were false.”
Relators’ complaint included government Medicare claims data that showed that “Bethany Hospice
derive[d] nearly all of its revenue from the Medicare
program monies,” and it provided a breakdown of Medicare referrals from the Bethany Hospice doctors.

7a
Finally, Relators alleged that five other Bethany
Hospice employees confirmed that Bethany Hospice
submitted Medicare reimbursement claims for patients referred by the Bethany Hospice doctors. At bottom, Relators alleged that “all or nearly all” of Bethany
Hospice’s business was derived from Medicare beneficiaries and that Bethany Hospice submitted claims for
Medicare reimbursement for those patients. Combined with Relators’ access to the billing systems and
confirmation from other employees that Bethany Hospice submitted Medicare reimbursement claims, Relators alleged that Bethany Hospice submitted false
claims to the government.
As noted, Relators’ operative complaint alleged
two causes of action. Relators alleged that Bethany
Hospice made false or fraudulent claims for reimbursement based on illegal kickbacks, in violation of
31 U.S.C. § 3729(a)(1)(A) and O.C.G.A. § 49-4168.1(a)(1). Relators also alleged that Bethany Hospice made false statements by certifying compliance
with the AKS, in violation of 31 U.S.C. § 3729(a)(1)(B)
and O.C.G.A. § 49-4-168.1(a)(2). 6
Bethany Hospice eventually moved to dismiss the
operative complaint. Bethany Hospice argued that Relators’ complaint contained primarily conclusory assertions and failed to plead its claims with sufficient
particularity, as required by Fed. R. Civ. P. 9(b). The
Relators opposed the motion, arguing that the operative complaint satisfied the requirements of Rule 9(b).
Relators also alleged that Best and Bethany Hospice retaliated against them for their investigations into the alleged FCA
violations, in violation of 31 U.S.C. § 3730(h) and O.C.G.A. § 494-168.4. The parties agreed to settle that claim.
6

8a
The district court granted Bethany Hospice’s motion to dismiss with prejudice. First, the district court
concluded that Relators did not plead sufficiently particular facts to allege that Bethany Hospice violated
the AKS. Although it acknowledged that the Relators
had put forth some facts to support their allegations
about a kickback scheme, the district court determined that Relators failed to allege particular facts
about the precise nature of the kickback incentives
and how much Best paid for referrals. The district
court then noted that, despite Relators’ access to billing reports, they failed to “provide specific dates that
Bethany Hospice paid doctors, the amounts doctors
were paid, or any specific patient in the reports.” The
district court added that Relators failed to provide
enough background for the district court to infer that
Dr. Tanner’s ownership shares were so inflated as to
constitute remuneration. Finally, the district court
concluded that Relators’ claim that 95% of Bethany
Hospice’s referrals came from the Bethany Hospice
doctors lacked factual support.
Second, the district court concluded that the Relators failed to plead the submission of a false claim with
particularity. The district court began by observing
that Relators’ complaint did not present an example of
a Medicare reimbursement claim that Bethany Hospice submitted to the government on behalf of an illegally referred patient. Next, the district court addressed the Relators’ argument that their inside
knowledge and Bethany Hospice’s Medicare referral
rates were sufficient indicia of reliability to meet Rule
9(b)’s pleading standard. Relying on our FCA precedent, the district court concluded that Relators’ complaint lacked sufficient indicia of reliability because

9a
Relators: (1) failed to describe Bethany Hospice’s billing operations in sufficient detail, (2) failed to describe
a single example of when Relators observed a false
claim being submitted, (3) did not themselves participate in the submission of false claims. Lastly, the district court explained that, under our precedent, courts
may not rely on mathematical probability to conclude
that a defendant submitted a false claim.
Finally, the district court dismissed Relators’ false
statements claim. The district court noted that Relators’ complaint contained only one paragraph describing the allegedly false statements. In the district
court’s view, that lone paragraph lacked the factual
support necessary to plead the claim with sufficient
particularity.
Relators timely appealed.
II. Standard of Review
“We review a dismissal with prejudice for failure
to state a claim under the False Claims Act de novo.”
Urquilla-Diaz v. Kaplan Univ., 780 F.3d 1039, 1050
(11th Cir. 2015). We take the allegations in the complaint as true and draw all reasonable inferences in
Relators’ favor. Id.
III. Discussion
Relators argue that the district court erred when
it concluded that their complaint failed to plead with
particularity Bethany Hospice’s kickback scheme, submission of a false claim, and certification of a false
statement. We agree with the district court that Relators failed to plead with particularity the submission
of an actual false claim, and that shortcoming is fatal
to Relators’ case. Accordingly, we affirm the district
court’s dismissal of Relators’ complaint.

10a
“The FCA imposes liability on any person who
‘knowingly presents, or causes to be presented, a false
or fraudulent claim for payment or approval; [or]
knowingly makes, uses, or causes to be made or used,
a false record or statement material to a false or fraudulent claim.’” United States ex rel. Phalp v. Lincare
Holdings, Inc., 857 F.3d 1148, 1154 (11th Cir. 2017)
(quoting 31 U.S.C. § 3729(a)(1)(A)–(B)). The AKS
“makes it a felony to offer kickbacks or other payments
in exchange for referring patients ‘for the furnishing
of any item or service for which payment may be made
in whole or in part under a Federal health care program.’” McNutt ex rel. United States v. Haleyville Med.
Supplies, Inc., 423 F.3d 1256, 1259 (11th Cir. 2005)
(quoting 42 U.S.C. § 1320a-b7(b)(1)). And, relevant
here, “a claim that includes items or services resulting
from a violation of [the AKS] constitutes a false or
fraudulent claim for purposes of [§ 3729(a)(1)].” 42
U.S.C. § 1320a-7b(g).
Nevertheless, the FCA “does not create liability
merely for a health care provider’s disregard of Government regulations or improper internal policies unless, as a result of such acts, the provider knowingly
asks the Government to pay amounts it does not owe.”
United States ex rel. Clausen v. Lab. Corp. of Am., 290
F.3d 1301, 1311 (11th Cir. 2002). A violation of the
AKS is a separate criminal offense. See United States
v. Sosa, 777 F.3d 1279, 1293 (11th Cir. 2015). But a
relator in a qui tam action must plead that a defendant
“both violated the [AKS] when it unlawfully recruited
a patient and then billed the government for the services provided to that patient.” Carrel v. AIDS
Healthcare Found., Inc., 898 F.3d 1267, 1277 (11th
Cir. 2018). Thus, the “act of submitting a fraudulent

11a
claim to the government is the ‘sine qua non of a False
Claims Act violation.’” Corsello v. Lincare, Inc., 428
F.3d 1008, 1012 (11th Cir. 2005) (quoting Clausen, 290
F.3d at 1311). Put differently, “[l]iability under the
False Claims Act arises from the submission of a
fraudulent claim to the government, not the disregard
of government regulations or failure to maintain
proper internal policies.” Id.
Furthermore, complaints alleging violations of the
FCA must meet the heightened pleading standard of
Rule 9(b). Id.; United States ex rel. Atkins v. McInteer,
470 F.3d 1350, 1357 (11th Cir. 2006). Under Rule 9(b),
a party “alleging fraud or mistake . . . must state with
particularity the circumstances constituting fraud or
mistake.” Fed. R. Civ. P. 9(b). To meet this standard,
we have explained that a complaint “must allege actual ‘submission of a false claim,’” and that it must do
so with “some indicia of reliability.” Carrel, 898 F.3d
at 1275 (quoting Clausen, 290 F.3d at 1311) (alteration
adopted). It is not enough to “point to ‘improper practices of the defendant’ to support ‘the inference that
fraudulent claims were submitted’ because ‘submission . . . cannot be inferred from the circumstances.’”
Id. (quoting Corsello, 428 F.3d at 1013) (alterations
adopted). In short, a relator must “allege the ‘who,’
‘what,’ ‘where,’ ‘when,’ and ‘how’ of fraudulent submissions to the government.” Corsello, 428 F.3d at 1014.
Although Relators concede that their complaint
did not include any details about specific claims submitted to the government, they argue that they have
met Rule 9(b)’s pleading threshold because their complaint contains sufficient indicia of reliability to support their claim that Bethany Hospice submitted false
claims to the government. First, Relators rely on their

12a
complaint’s allegations that they had access to and
knowledge of Bethany Hospice’s billing practices. For
example, Relators alleged that they attended meetings
in which Best “discussed site productivity and census
numbers for all Bethany Hospice’s and Bethany
Coastal’s sites.” Relators further alleged that they reviewed billing data that showed that Bethany Hospice
submitted Medicare reimbursement claims for patients referred by the Bethany Hospice doctors. And
Relators alleged that five other Bethany Hospice employees confirmed that such claims were submitted.
Second, Relators draw our attention to the numbers.
They alleged that the Bethany Hospice doctors referred significant numbers of Medicare recipients to
Bethany Hospice and that “all or nearly all” of Bethany Hospice’s patients received coverage from Medicare. In short, Relators argue that their knowledge
and access, coupled with data about Bethany Hospice’s
Medicare claims submissions, lends sufficient indicia
of reliability to survive Bethany Hospice’s motion to
dismiss. We disagree.
To begin, Relators have failed to allege any specifics about actual claims submitted to the government.
Despite alleging intimate familiarity with and access
to Bethany Hospice’s billing practices, Relators’ complaint fails to identify even a single, concrete example
of a false claim submitted to the government. See
Clausen, 290 F.3d at 1306 (“[N]o copies of a single actual bill or claim or payment were provided. No
amounts of any charges by LabCorp were identified.
No actual dates of claims were alleged. Not a single
completed Form 1500 was provided.”); Carrel, 898
F.3d at 1277 (noting that the plaintiff failed to allege

13a
facts about a specific claim submitted for reimbursement).
To be sure, we do not always require a sample
fraudulent claim because “we are more tolerant toward complaints that leave out some particularities of
the submissions of a false claim if the complaint also
alleges personal knowledge or participation in the
fraudulent conduct.” United States ex rel. Matheny v.
Medco Health Sols., Inc., 671 F.3d 1217, 1230 (11th
Cir. 2012). But Relators do not even attempt to provide
any particular facts about a representative false claim.
Moreover, Relators do not have the personal
knowledge or level of participation that can give rise
to some indicia of reliability. In Carrel, the relators
“highlighted their managerial positions” at the defendant company and their attendance “at monthly financial review meetings.” 898 F.3d at 1277. But we found
this kind of senior insider knowledge insufficient because “the relators failed to explain how their access
to possibly relevant information translated to
knowledge of actual tainted claims presented to the
government.” Id. at 1278. Relators’ complaint suffers
from the same flaw. The complaint alleged that at
least one Relator (Helmly) attended meetings that discussed the productivity of various Bethany Hospice
sites and that both Relators had access to Bethany
Hospice’s billing systems and confirmed from their review of those systems and conversations with other
employees that Bethany Hospice submitted false
claims. Those allegations are insufficient to satisfy
Rule 9(b)’s particularity requirement because even
with “direct knowledge of the defendants’ billing and
patient records,” Relators have “failed to provide any
specific details regarding either the dates on or the

14a
frequency with which the defendants submitted false
claims, the amounts of those claims, or the patients
whose treatment served as the basis for the claims.”
United States ex rel. Sanchez v. Lymphatx, Inc., 596
F.3d 1300, 1302 (11th Cir. 2010). Additionally, Relators did not claim to have observed the submission of
an actual false claim; nor did they personally participate in the submission of false claims. See Matheny,
671 F.3d at 1230 (crediting the complaint’s allegations
when one of the relators was intimately involved in a
department of the defendant company that was responsible for creating the alleged false claims.); United
States v. R&F Props. of Lake Cnty., Inc., 433 F.3d
1349, 1356–58 (11th Cir. 2005) (crediting a complaint’s
allegations because one of the relators was a nurse
practitioner who personally used incorrect billing
codes). In sum, Relators’ access and knowledge are not
sufficient indicia of reliability.
Relators’ reliance on Bethany Hospice’s business
model and Medicare claims data lends no credence to
their allegation that Bethany Hospice submitted a
false claim. Relators alleged that Bethany Hospice
doctors referred significant numbers of Medicare recipients, that “all or nearly all” of Bethany Hospice’s
patients were Medicare recipients, and that Medicare
claims data shows that Bethany Hospice billed the
government for their patients. Therefore, Relators
contend, their complaint contains sufficient indicia of
reliability to allege plausibly that Bethany Hospice
submitted a false claim. But we have explained that
relators cannot “rely on mathematical probability to
conclude that [a defendant] surely must have submitted a false claim at some point.” Carrel, 898 F.3d at
1277; see also Corsello, 428 F.3d at 1012–13

15a
(explaining that it is insufficient to “describe[] in detail
a private scheme to defraud” and then speculate that
claims “must have been submitted, were likely submitted or should have been submitted to the Government”). Thus, numerical probability is not an indicium
of reliability. Relators attempt to distinguish Clausen
and Carrel by pointing out that neither defendant in
those cases billed the government for almost all its
business. That distinction is unpersuasive. Under the
FCA and Rule 9(b), a false claim cannot be “inferred
from the circumstances.” Corsello, 428 F.3d at 1013.
Whether a defendant bills the government for some or
most of its services, the burden remains on a relator
alleging the submission of a false claim to “allege ‘specific details’ about false claims to establish ‘the indicia
of reliability necessary under Rule 9(b).’” Carrel, 898
F.3d at 1276 (quoting Sanchez, 596 F.3d at 1302).
Here, Relators have failed to allege any specific details
about the submission of an actual false claim. 7
In sum, Relators’ complaint fails to contain some
indicia of reliability to meet Rule 9(b)’s particularity
requirement. Although we construe all facts in favor of
Relators, we “decline to make inferences about the
submission of fraudulent claims because such an assumption would ‘strip[] all meaning from Rule 9(b)’s
requirements of specificity.’” Corsello, 428 F.3d at
1013 (quoting Clausen, 290 F.3d at 1312 n.21); Atkins,
470 F.3d at 1359 (“The particularity requirement of
Relators also rely on two other decisions that they argue
support their case. See United States ex rel. Mastej v. Health
Mgmt. Assocs., Inc., 591 F. App’x 693, 695 (11th Cir. 2014); Hill
v. Morehouse Med. Assocs., 2003 WL 22019936, at *3–4 (11th Cir.
Aug. 15, 2003) (per curiam). We do not read those nonprecedential decisions to be contrary to our analysis.
7

16a
Rule 9 is a nullity if Plaintiff gets a ticket to the discovery process without identifying a single claim.”
(quotation omitted)); id. at 1360 (“Requiring relators
to plead FCA claims with particularity is especially
important in light of the quasi-criminal nature of FCA
violations (i.e., a violator is liable for treble damages).”).
Because Relators have failed to plead the submission of an actual false claim with particularity, their
false statement claim also fails. The “submission of a
[false] claim is . . . the sine qua non of a False Claims
Act violation.” Clausen, 290 F.3d at 1311. And as Relators acknowledge, “[i]f Bethany Hospice’s claims
were false or fraudulent, it follows that when Bethany
Hospice certified its compliance with the AKS” it made
false statements under § 3729(a)(1)(B). But Relators
have failed to plead a false claim with particularity, so
their false statement claim must also be dismissed.
See, e.g., United States ex rel. Grant v. United Airlines
Inc., 912 F.3d 190, 199–200 (4th Cir. 2018) (dismissing
a false statement claim because relators’ complaint
failed to allege a false claim); United States ex rel.
Strubbe v. Crawford Cnty. Mem’l Hosp., 915 F.3d
1158, 1166 (8th Cir. 2019) (rejecting a false statement
claim because the complaint “fail[ed] to connect the
false records or statements to any claim made to the
government”).
IV. Conclusion
Because Relators failed to allege the submission
of an actual false claim with particularity, the district
court properly dismissed their complaint. Accordingly,
we affirm.
AFFIRMED.

17a
APPENDIX B
________________________________
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF GEORGIA
SAVANNAH DIVISION
________________________________
Case No. CV416-290
________________________________
UNITED STATES OF AMERICA EX REL.
JOLIE JOHNSON AND DEBBIE HELMLY, AND
STATE OF GEORGIA EX REL. JOLIE JOHNSON AND
DEBBIE HELMLY,
Plaintiffs-Relators,
v.
BETHANY HOSPICE AND PALLIATIVE
CARE, LLC,
Defendant.
________________________________
March 31, 2020
________________________________
ORDER
Before the Court is Defendant Bethany Hospice
and Palliative Care, LLC’s Motion to Dismiss Relators’
Third Amended Complaint. (Doc. 100.) For the following reasons, Defendant Bethany Hospice and Palliative Care, LLC’s Motion to Dismiss (Doc. 100) is
GRANTED. Accordingly, Relators’ claims against Defendant Bethany Hospice and Palliative Care, LLC are
DISMISSED WITH PREJUDICE. The Clerk is DIRECTED to close this case.

18a
BACKGROUND 1
Relators Debbie Helmly and Jolie Johnson bring
this case on behalf of the United States and the State
of Georgia. 2 (Doc. 98.) Relators claim that Bethany
Hospice and Palliative Care, LLC (“Bethany Hospice”)
violated the False Claims Act (“FCA”), 31 U.S.C.
§ 3729, and the Georgia False Medicaid Claims Act
(“GFMCA”), O.C.G.A. § 49-4-168.1. (Id. at 35-36.) As
the basis of their FCA claims, Relators allege that
Bethany Hospice violated the Anti-Kickback Statute
(“AKS”), 42 U.S.C. § 1320a-7b, by providing physicians
remuneration in exchange for referrals—“kickbacks.”
(Id. at 5.) Relators’ contend that because Bethany Hospice allegedly violated the AKS, any claims filed with
Medicare or Medicaid for reimbursement for hospice
services rendered by Bethany Hospice were in violation of the FCA and GFMCA. 3 (Id. at 26.)
Relators filed this case under seal on November 4,
2016. (Doc. 1.) Their original complaint named fortynine (49) defendants. (Id.) On June 5, 2017, the United
States notified the Court that it was declining to
For the purposes of this Order, the Court will accept all factual allegations in the Third Amended Complaint as true and
construe all allegations in the light most favorable to Plaintiff.
Timson v. Sampson, 518 F.3d 870, 872 (11th Cir. 2008).
1

2
In their Third Amended Complaint, Relators state that after
Debbie Helmly’s death on March 27, 2018, her estate was substituted as a party in this action. (Doc. 98 at 3.) The Clerk is DIRECTED to amend the caption of this case accordingly. For purposes of this Order, the Court will refer to the Estate of Debbie
Helmly as “Relater Helmly.”

For purposes of this Order, there is no meaningful distinction between Medicare and Medicaid; thus, the Court will use
Medicare as a reference to both federal healthcare programs.
3

19a
intervene in this matter. (Doc. 10.) Subsequently, on
March 12, 2018, the State of Georgia also notified the
Court that it was also declining to intervene in this
matter. (Doc. 14.) After these declinations, the Court
ordered the complaint unsealed and that Defendants
be served with copies of the complaint. (Doc. 17.)
Relators have amended their complaint three
times since filing this case. (Doc. 18; Doc. 45; Doc. 98.)
Relators filed their Third Amended Complaint (“complaint”) on May 13, 2019 and it forms the basis of this
Order. (Doc. 98.) After numerous dismissals, only two
defendants are named in the complaint: Bethany Hospice and Bethany Hospice and Palliative Care of
Coastal Georgia, LLC (“Bethany Coastal”). (Id.) However, after filing the complaint, Relators dismissed
Bethany Coastal as a defendant. (Doc. 128.) As a result, Defendant Bethany Hospice is the only defendant
remaining in this case. 4
Bethany Hospice is a for-profit provider of hospice
care in Georgia. (Id. at 2. ) Bethany Hospice operates
offices in four cities—Douglas, Thomasville, Waycross,
and Valdosta. (Id.) In October 2014, Bethany Hospice
opened Bethany Coastal in Claxton, Georgia. (Id. at 5.)
Unlike Bethany Hospice’s other locations, Bethany
Coastal was organized as a separate company and obtained a different hospice license number. (Id. at 7.)
Relators are former employees of Bethany
Coastal. (Id. at 3.) Relator Johnson worked as a marketer for Bethany Coastal from December 2014 until
Relators brought their retaliation claim against Bethany
Coastal. (Doc. 98 at 36.) Because Relators dismissed Bethany
Coastal from this action, Relators’ retaliation claim is DISMISSED.
4

20a
July 2015, and Relator Helmly worked as an administrator for Bethany Coastal from December 2014 until
July 2015. (Id.) Relators allege that during their brief
employment with Bethany Coastal, they discovered
evidence that Bethany Hospice was operating an illegal referral scheme in violation of the FCA and
GFMCA. (Id.)
According to Relators, although Bethany Hospice
and Bethany Coastal are licensed as separate entities,
Bethany Coastal operated “as if it were another [ ] office of Bethany Hospice.” (Id. at 31.) Specifically, the
two entities used the same hospice management software—Consolo—to organize patient information, site
productivity, and patient census. (Id. at 32.) Additionally, Relators allege that the two entities were owned
and operated by the same individuals—Ava Best and
Mac Mackey. (Id. at 31.) Ms. Best served as the President and Chief Executive Officer (“CEO”) of Bethany
Hospice and Bethany Coastal, and Mr. Mackey served
as Chief Financial Officer (“CFO”) of Bethany Hospice
and Bethany Coastal. (Id.) Relators also allege that
Ms. Best and Mr. Mackey both owned “substantial investment interests in Bethany Hospice and Bethany
Coastal . . . .” (Id. at 32.) Because of Bethany Hospice
and Bethany Coastal’s “significant overlap in personnel, resources, and operations,” Relators allege that
they were “effectively . . . corporate insiders of Bethany Hospice.” (Id. at 31.)
Relators’ claim that their status as “corporate insiders” allowed them to acquire personal knowledge of
Bethany Hospice’s allegedly fraudulent activity. Specifically, Relators allege that Bethany Hospice operated an illegal referral scheme in which Bethany Hospice paid doctors in exchange for patient referrals. (Id.

21a
at 10.) Once Bethany Hospice rendered services to
these illegally referred patients, Bethany Hospice allegedly submitted claims for reimbursement for those
services to Medicare. 5 (Id. at 10.) Relators identify several pieces of evidence in their complaint they claim
support their allegation that Bethany Hospice operated an illegal kickback scheme. (Id.)
To begin, Relators claim that Ms. Best admitted
to operating an illegal kickback scheme. (Id. at 10.) According to Relators, Ms. Best sold ownership interest
in Bethany Hospice to doctors and hired doctors as
medical directors of several of the Bethany Hospice locations. (Id. at 10-11.) After a doctor became a partowner or medical director, Ms. Best paid the doctor for
each patient he referred to Bethany Hospice. (Id.)
Bethany Hospice allegedly disguised these kickbacks
as monthly dividends, bonuses, or salaries. (Id. at 12.)
According to Dr. Marshall Tanner, his payments
ranged from “approximately $10,000 to $20,000 annually . . . .” (Id. at 14.)
Relators also allege that Bethany Hospice paid
doctors kickbacks by allowing the doctors to purchase
Although Relators allege various other FCA violations in
their complaint, such as “failure to perform the services required
by hospice . . .,” failure to employ a social worker with a master’s
degree, and “discharging patients if they were going to the hospital . . .,” the Court will not address these allegations. (Doc. 98 at
23-24.) Relators very briefly discuss these circumstances in reference to other things they investigated at Bethany Hospice. (Id. at
23.) Without more than a couple of sentences, the Court cannot
address these allegations as violations of the FCA. See United
States v. Cross Garden Care Cntr., LLC, No. 8:16-cv-961-T27AEP, 2019 WL 6493972, at *6 (M.D. Fla. Dec. 3, 2019). Therefore, only the illegal referral scheme will be discussed as the basis
for Bethany Hospice’s alleged FCA violations.
5

22a
ownership interest at a below fair-market-value price
and then, after the doctors referred patients to Bethany Hospice, “[the doctors] can ‘cash out’ for an unbelievably higher rate.” (Id.) Relators identify Dr. Tanner as an example of this type of remuneration. (Id.)
According to Relators, in 2007, Dr. Tanner purchased
a 5% share in Bethany Hospice for $20,000. (Id.) Seven
years later, Dr. Tanner allegedly sold his shares for
$330,000. (Id.)
Another form of remuneration allegedly paid by
Bethany Hospice to doctors was an all-expense paid
vacation in exchange for patient referrals. (Id. at 18.)
Relators allege that, in May 2015, Ms. Best offered
several doctors a trip in exchange for patient referrals.
(Id.) The trip was to occur in August 2015, but Relators
do not indicate whether the doctors actually went on
the trip. (Id.)
The complaint also identifies the four doctors that
Relators allege are primarily involved in the illegal
kickback scheme: (1) Dr. David Arnett; (2) Dr. Justin
Harrell; (3) Dr. Stan Sinclair; and (4) Dr. Conrad Harper. (Id. at 15.) Relators refer to these doctors as the
“Bethany Hospice doctors.” (Id.) Each of the Bethany
Hospice doctors served as medical directors for various
Bethany Hospice offices, however, none of the doctors
served as medical directors for Bethany Coastal. (Id.)
In addition, Relators allege that, based on mathematical probability, Bethany Hospice must be operating an illegal kickback scheme. Specifically, Realtors
allege that, at various times, “around 95% of Bethany
Hospice’s” patients were referred from Bethany Hospice doctors and that those doctors referred “nearly

23a
all” of their hospice patients to Bethany Hospice. 6 (Id.
at 15-16.)
In conjunction with the suspected kickback
scheme, Relators also allege that Bethany Hospice
submitted claims for reimbursement from Federal
Health Care Programs—such as, Medicare and Medicaid—for services rendered to the unlawfully referred
patients. (Id.) Relators allege that they know claims
tainted by the kickback scheme were actually submitted because, during their employment with Bethany
Coastal, Relators “gained intimate knowledge of Bethany Hospice’s and Bethany Coastal’s billing protocols
and operations.” (Id. at 24.) Relators point to several
pieces of evidence that they claim support their contention that Bethany Hospice submitted claims to
Medicare for reimbursement.
First, Relators describe several conversations
they had with Bethany Hospice employees about Medicare patients being unlawfully referred by doctors.
(Id. at 24-25.) One such conversation was with Shonda
Jowers, Clinical Director of Bethany Hospice’s Douglas office. (Id. at 24.) Ms. Jowers allegedly told Relators that Medicare patients were referred to Bethany
Hospice from Bethany Hospice doctors and, in turn,
Bethany Hospice billed the government for the services provided to the patients. (Id.) Relators also claim
that Robert Clements, the former Bethany Hospice
Community Education Representative, told them that
Relators do not specify whether this percentage includes the
patients referred to Bethany Coastal, however, because the Court
must construe all facts in the light most favorable to Relators, the
Court will consider that the patients referred to Bethany Coastal
were included in the calculations.
6

24a
“every single referral from [the Bethany Hospice doctors] was for a Medicare . . . beneficiary.” (Id. at 25.)
Mr. Clements allegedly learned this information from
other Bethany Hospice employees. (Id. at 26.)
Second, Relators claim that they had personal access to Bethany Hospice’s “aggregate billing and referral data for Medicare beneficiaries.” (Id. at 27.) In fact,
Relator Johnson and Relator Helmly claim that they
each had individual access to information about Bethany Hospice’s Medicare claims. Relator Johnson “interacted with administration at every Bethany Hospice and Bethany Coastal location” and “had access to
the census reports documenting each [hospice] site’s
patients and [who paid] for the patients’ care.” (Id. at
30.) Relator Helmly “had access to all of the billing information and census reports for every Bethany office”
and “attended meetings with Ms. Best where Bethany
Hospice and Bethany Coastal management discussed
site productivity . . . .” (Id.) Relator Helmly also claims
that the former Vice President of Bethany Hospice,
Jeneen Cliett, taught her how to create reports documenting the number of patients referred to Bethany
Hospice by each doctor. (Id. at 12-13.) According to Ms.
Cliett, Ms. Best used “these reports to determine how
much to pay referral sources.” (Id. at 13.)
Lastly, Relators allege that, based on “Medicare
claims data,” Bethany Hospice doctors referred “the
vast majority of their Medicare patients to Bethany
Hospice.” (Id. at 27.) Using this data, Relators contend
that from the third quarter of 2016 to the second quarter of 2018 the Bethany Hospice doctors referred 100%
of their eligible Medicare patients to Bethany Hospice.
(Id. at 28-29.) Relators insist that “Bethany Hospice

25a
derives nearly all of its revenue from” Medicare reimbursement. (Id. at 27.)
Based on these allegations, Relators brought two
claims pursuant to the FCA against Bethany Hospice:
(1) false or fraudulent claims, under 31 U.S.C.
§ 3729(a)(1)(A); and (2) false statements material to a
false or fraudulent claim, under 31 U.S.C.
§ 3729(a)(1)(B). 7 (Id. at 35-36.) In the first claim, Relators allege that Bethany Hospice’s kickback scheme
led to the submission of false claims tainted by illegal
remuneration. (Id. at 35.) In the second claim, Relators allege that Bethany Hospice knowingly created
false statements certifying compliance with the AKS
and the FCA in order to receive reimbursement from
Medicare, and, in fact, did receive reimbursement. (Id.
at 35-36.)
Bethany Hospice has now moved to dismiss Relators’ complaint. (Doc. 100.) Bethany Hospice contends
that Relators have failed to plead facts in the complaint with the particularity required by Federal Rule
of Civil Procedure 9(b), and therefore, the entire complaint should be dismissed. (Id. at 9.) Relators have responded in opposition to this motion. (Doc. 121.) Bethany Hospice filed a Reply in Support of its Motion to
7
In the complaint, Relators assert two claims under the
GFMCA that are based on the same allegations as Relators’ FCA
claims. (Doc. 98 at 35-36.) In its motion to dismiss, Bethany Hospice cites authority for the proposition that a relater who fails to
state a claim under the FCA necessarily fails to state a claim under the GFMCA. See Cade v. Progressive Cmty. Healthcare, Inc.,
No. 1:09-cv-3522-WSD, 2011 WL 2837648, at *3 (N.D. Ga. July
14, 2011). Relators do not challenge this proposition. As a result,
the Court’s analysis applies to Relators’ claims brought under the
FCA and the GFMCA.

26a
Dismiss (Doc. 130), to which Relators filed a Sur-Reply
in Opposition (Doc. 134). Bethany Hospice’s Motion to
Dismiss Relators’ Third Amended Complaint is now
ripe for review.
STANDARD OF REVIEW
Federal Rule of Civil Procedure 8(a)(2) requires a
complaint to contain “a short and plain statement of
the claim showing that the pleader is entitled to relief.” “[T]he pleading standard Rule 8 announces does
not require ‘detailed factual allegations,’ but it demands more than an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S. Ct. 1937, 1949, 173 L. Ed. 2d
868 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555, 127 S. Ct. 1955, 1964, 167 L. Ed. 2d 929
(2007)). “A pleading that offers ‘labels and conclusions’
or a ‘formulaic recitation of the elements of a cause of
action will not do.’” Id. (quoting Twombly, 550 U.S. at
555, 127 S. Ct. at 1965). “Nor does a complaint suffice
if it tenders ‘naked assertion[s]’ devoid of ‘further factual enhancement.’” Id. (quoting Twombly, 550 U.S. at
557, 127 S. Ct. at 1966) (alteration in original).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’” Id.
(quoting Twombly, 550 U.S. at 570, 127 S. Ct. at 1974).
For a claim to have facial plausibility, the plaintiff
must plead factual content that “allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Sinaltrainal v. CocaCola Co., 578 F.3d 1252, 1261 (11th Cir. 2009) (quotations omitted). Plausibility does not require probability, “but it asks for more than a sheer possibility that

27a
a defendant has acted unlawfully.” Iqbal, 556 U.S. at
678, 129 S. Ct. at 1949. “Where a complaint pleads
facts that are ‘merely consistent with’ a defendant’s liability, it ‘stops short of the line between possibility
and plausibility of entitlement to relief.’” Id. (quoting
Twombly, 550 U.S. at 557, 127 S. Ct. at 1966). Additionally, a complaint is sufficient only if it gives “fair
notice of what the . . . claim is and the grounds upon
which it rests.” Sinaltrainal, 578 F.3d at 1268 (quotations omitted).
When the Court considers a motion to dismiss, it
accepts the well-pleaded facts in the complaint as true.
Id. at 1260. However, this Court is “not bound to accept as true a legal conclusion couched as a factual allegation.” Iqbal, 556 U.S. at 678, 129 S. Ct. at 1950.
Moreover, “unwarranted deductions of fact in a complaint are not admitted as true for the purpose of testing the sufficiency of [plaintiff’s] allegations.” Sinaltrainal, 578 F.3d at 1268 (citing Aldana v. Del
Monte Fresh Produce, N.A., Inc., 416 F.3d 1242, 1248
(11th Cir. 2005)). That is, “[t]he rule ‘does not impose
a probability requirement at the pleading stage,’ but
instead simply calls for enough facts to raise a reasonable expectation that discovery will reveal evidence of
the necessary element.” Watts v. Fla. Int’l Univ., 495
F.3d 1289, 1295-96 (11th Cir. 2007) (quoting Twombly,
550 U.S. at 545, 127 S. Ct. at 1959).
In addition to Rule 8(a)(2), the heightened pleading standard of Federal Rule of Civil Procedure 9(b)
applies to causes of actions brought under the FCA.
Hopper v. Solvay Pharm., Inc., 588 F.3d 1318, 1324
(11th Cir. 2009). Rule 9(b) states that “in alleging
fraud or mistake, a party must state with particularity
the circumstances constituting fraud or mistake.” Fed.

28a
R. Civ. P. 9(b). However, “[m]alice, intent, knowledge,
and other conditions of a person’s mind may be alleged
generally.” Id.
Despite the heightened standard, the purpose of
Rule 9(b) remains that a complaint must provide the
defendant with “enough information to formulate a defense to the charges.” United States ex rel. Clausen v.
Lab. Corp. of Am., Inc., 290 F.3d 1301, 1313 n.24 (11th
Cir. 2002). The Eleventh Circuit has emphasized that
“[t]he application of Rule 9(b) . . . ‘must not abrogate
the concept of notice pleading.’” Tello v. Dean Witter
Reynolds, Inc., 494 F.3d 956, 972 (11th Cir. 2007)
(quoting Ziemba v. Cascade Int’l, Inc., 256 F.3d 1194,
1202 (11th Cir. 2001)). Furthermore, Rule 9(b)’s standard “should not be conflated with that used on a summary judgment motion.” United States ex rel. Rogers v.
Azmat, No. CV507-092, 2011 WL 10935176, at *3 (S.D.
Ga. May 16, 2011).
Rule 9(b) serves to ensure that a FCA claim has
“some indicia of reliability . . . to support the allegation
of an actual false claim for payment being made to the
Government.” Clausen, 290 F.3d at 1311. This is because “[t]he [FCA] does not create liability merely for
a health care provider’s disregard of Government regulations or improper internal policies unless, as a result of such acts, the provider knowingly asks the Government to pay amounts it does not owe.” Id. As a result, an FCA complaint must plead not only the “who,
what, where, when, and how of improper practices,”
but also the “who, what, where, when, and how of
fraudulent submissions to the government.” Corsello
v. Lincare, Inc., 428 F.3d 1008, 1014 (11th Cir. 2005).
The question of whether a complaint satisfies Rule
9(b) is decided on a case-by-case basis, but even

29a
detailed portrayals of fraudulent schemes followed by
conclusions that false claims must have been submitted is insufficient. See United States ex rel. Atkins v.
Mcinteer, 470 F.3d 1350, 1358 (11th Cir. 2006). In
other words, the complaint must allege with particularity both “the details of the defendant[’s] allegedly
fraudulent acts” and that claims tainted by the defendant’s fraud were actually submitted to the government. Clausen, 290 F.3d at 1311.
ANALYSIS
In its Motion to Dismiss, Bethany Hospice argues
that Relators’ complaint should be dismissed because
Relators failed to allege FCA violations with the particularity required by Rule 9(b). (Doc. 100.) As an initial matter, Bethany Hospice argues that Relators
failed to plead the facts surrounding Bethany Hospice’s alleged kickback scheme with particularity. (Id.
at 10.) Alternatively, Bethany Hospice argues that Relators do not plead with particularity their assertions
that Bethany Hospice actually submitted false claims
to the government. (Id. at 15.) Bethany Hospice contends that Relators’ complaint could be dismissed on
either of these grounds. The Court will now consider
Bethany Hospice’s arguments in turn.
I.

ANTI-KICKBACK STATUTE VIOLATIONS

“The [AKS] makes it a felony to offer kickbacks or
other payments in exchange for referring patients ‘for
the furnishing of any item or service for which payment may be made in whole or in part under a Federal
health care program.’” McNutt ex rel. v. Haleyville
Med. Supplies, Inc., 423 F.3d 1256, 1259 (11th Cir.
2005) (quoting 42 U.S.C. § 1320a-7b(b)(2)(A)). “A violation of the [AKS] occurs when a defendant:

30a
(1) knowingly and willfully, (2) ‘offers of pays any remuneration,’ directly or indirectly, (3) to induce a person to refer individuals to the defendant[] for the furnishing of medical services, (4) paid for by Medicare.” 8
United States v. Choudhry, No. 8:13-cv-2603-T27AEP, 2017 WL 2604930, at *4 (M.D. Fla. June 14,
2017) (citing United States ex rel. Mastej v. Health
Mgmt. Assocs., Inc., 591 F. App’x 693, 705 (11th Cir.
2014)).
The AKS provides that “a claim [to Medicare for
reimbursement] that includes items or services resulting from a violation of [the AKS] constitutes a false or
fraudulent claim for purposes of [the FCA].” 42 U.S.C.
§ 1320a-7b(g). In this case, Relators allege that Bethany Hospice violated the AKS and, therefore, any
claims resulting from Bethany Hospice’s violations are
fraudulent under the FCA. See United States ex rel.
Schaengold v. Mem’l Health, Inc., No. 4:11-cv-58, 2014
WL 7272598, at *3 (S.D. Ga. Dec. 18, 2014) (finding
that violations of the AKS “can provide the basis of
FCA liability”). As the basis of Bethany Hospice’s FCA
liability, Relators must plead the circumstances constituting Bethany Hospice’s alleged AKS violations
with particularity. Mastej, 591 F. App’x at 705. Violations of the AKS are pled with particularity when the
complaint provides “the names of the doctors who received the incentives, the names of the defendant[’s]
employees who negotiated the incentives with the doctors, precisely what the incentives were, when they

The AKS does include statutory and regulatory exceptions
to the prohibitions against payments for referrals, but Bethany
Hospice does not argue that any of the exceptions apply. Therefore, the Court will not address the exceptions.
8

31a
were provided, why they were provided, and why they
were illegal.” Id. at 705; United States ex rel. Matheny
v. Medco Health Sols., Inc., 671 F.3d 1217, 1222 (11th
Cir. 2012) (“The particularity requirement of Rule 9(b)
is satisfied if the complaint alleges facts as to time,
place, and substance of the defendant’s alleged fraud,
specifically the details of the defendant[’s] allegedly
fraudulent acts, when they occurred, and who engaged
in them.”) (internal citations omitted).
In its Motion to Dismiss, Bethany Hospice argues
that Relators have not sufficiently pled the existence
of a compensation arrangement that violates the AKS.
(Doc. 100 at 10.) Specifically, Defendant Bethany Hospice argues that Relators provide only “conclusory assertions” and fail to “provide facts to support” allegations that doctors received payment from Bethany
Hospice as inducement for patient referrals. (Id. at
13.) The Court agrees.
To their credit, Relators provide some facts to support their allegation of an illegal kickback scheme. For
example, Relators named several doctors—the “Bethany Hospice doctors”—that they claim Bethany Hospice paid for referrals. (Doc. 98 at 15.) Relators also
named one doctor that allegedly benefitted from an
unfair investment in Bethany Hospice—Dr. Tanner.
(Id. at 14-15.) Additionally, Relators named the individual who allegedly organized the illegal kickback
scheme—Ms. Ava Best. (Id. at 13.) Relators’ also allege
that Ms. Best admitted that she “mask[ed] payments
to doctors for referrals.” (Id. at 17.)
Despite these factual allegations, Relators’ do not
allege enough facts with particularity to support their
contention that Bethany Hospice violated the AKS.
Specifically, Relators fail to allege with particularity

32a
“precisely what the incentives were, when they were
provided . . .,” and how they were provided to the doctors. Mastej, 591 F. App’x at 705. Although Relators
claim that “Ms. Best told Relator Helmly that she
would follow the same protocol to add compensation
for Relator Helmly that she used to pay referring doctors for their referrals,” Relators provide no details as
to how much Ms. Best paid for referrals. (Doc. 98 at
10.) In fact, Relators provide contradictory factual allegations about payments to doctors. Relators claim
that Ms. Best admitted to paying doctors on a monthly
basis (Doc. 98 at 12) and also claim that Dr. Tanner
was paid annually (Doc. 98 at 14).
Moreover, Relators assert that they created reports for Ms. Best that tracked referrals, but, even
with their alleged access to these reports, Relators
cannot provide specific dates that Bethany Hospice
paid doctors, the amounts doctors were paid, or any
specific patient in the reports. 9 (Id. at 12.) Relators
only state “[e]ach of these physicians receive dividends
based on how many patients their site puts under census.” (Id. at 15.) Relators’ purported access to these reports should have afforded them more specific information. Without more specific facts supporting Relators’ allegations about Bethany Hospice’s alleged AKS
violations, the complaint does not meet the particularity requirement of Rule 9(b). See Ga. ex rel. Hunter
Labs., LLC v. Quest Diagnostics Inc., No. 1:13-cv01838-SCJ, 2014 WL 12543888, at *4 (N.D. Ga. Mar.
17, 2014) (finding “the kickback scheme . . . obviously
deficient” because plaintiffs failed “to articulate any
In fact, Relators do not contend they actually made a report
for Ms. Best, rather, that they learned how to make the reports.
9

33a
specific kickback at issue” such as when the defendant
offered inducements and what the specific rates were).
Relators also fail to plead their allegation that
Bethany Hospice paid doctors illegal kickbacks by selling doctors shares in Bethany Hospice at below fairmarket-value with particularity. In their complaint,
Relators highlight Dr. Tanner as an example of this
type of remuneration. (Doc. 98 at 14.) Relators allege
the purchase and sale price of Dr. Tanner’s ownership
interest of Bethany Hospice; however, Relators overlook the fact that Dr. Tanner purchased additional
shares before he sold his interest. (Id. at 14.) Therefore, it is reasonable to assume that Dr. Tanner’s sale
price would be higher than his purchase price. Moreover, “[w]ithout alleging a benchmark of fair market
value, it is impossible for the Court to infer whether”
Bethany Hospice’s offer “falls sufficiently below the
benchmark so as to constitute remuneration.” United
States ex rel. Osheroff v. Tenet Healthcare Corp., No.
09-22253-CIV, 2012 WL 2871264, at *7 (S.D. Fla. July
12, 2012); see also United States v. All Children’s
Health Sys., Inc., No. 8: 11-cv-01687-T-27EAJ, 2013
WL 6054803, at *11 (M.D. Fla. Nov. 15, 2013) (finding
relator satisfied Rule 9(b) because she alleged “a fair
market value benchmark for” competitive salaries of
doctors nationwide).
Lastly, Relators suggest that the high percentage
of patients referred to Bethany Hospice indicates that
Bethany Hospice was paying doctors for referrals. To
support this suggestion, Relators allege that “[i]n certain periods, around 95% of Bethany Hospice’s referrals came from doctors with a financial interest in
Bethany Hospice.” (Doc. 98 at 15.) In addition, Relators allege that “while nearly none of their referrals

34a
went to Bethany Hospice before their financial arrangements, afterwards, nearly all of the ‘Bethany
Hospice doctors’ referrals for hospice services have
gone to Bethany Hospice.” (Id. at 16.) However, Relators do not support these contentions with any evidence. Relators do not explain what numbers were
used to calculate the percentages and do not provide
the Court with the source of this data.
Because Relators have failed to plead the circumstances of an illegal kickback scheme with particularity and this scheme forms the basis of Relators’ FCA
claims, the Court finds that Relators’ claims should be
dismissed. 10 Nevertheless, the Court will address Relators’ allegations regarding the submission of false
claims to Medicare.
II. SUBMISSION OF FALSE CLAIMS TO THE
GOVERNMENT
Even if Relators had pled the circumstances of
Bethany Hospice’s AKS violations with particularity,
“[m]erely alleging a violation of the [AKS] does not sufficiently state a claim under the FCA.” Mastej, 591
F. App’x at 706. “[T]he Eleventh Circuit has clearly articulated a complaint that simply alleges an illegal
scheme is insufficient to satisfy the pleading standard
of Rule 9(b) if said complaint fails to particularize the
existence of a single actual false claim in relation to
the fraudulent scheme.” Hunter Labs., LLC, 2014 WL
Relators’ also alleged that Bethany Hospice offered the
Bethany Hospice doctors a free trip. (Doc. 98 at 18.) However, Relators do not allege that the doctors actually went on this trip and
Relators were not employed by Bethany Coastal at the time the
trip was supposed to occur. (Id.) Therefore, this allegation also
does not plead enough facts with particularity to satisfy Rule 9(b).
10

35a
12543888, at *4. “It is the submission and payment of
a false Medicare claim and false certification of compliance with the law that creates FCA liability.”
Mastej, 591 F. App’x at 706. In other words, Relators
cannot simply describe an illegal kickback scheme and
then state that claims “must have been submitted,
were likely submitted[,] or should have been submitted.” Carrel v. AIDS Healthcare Found., Inc., 898 F.3d
1267, 1275 (11th Cir. 2018) (internal citation omitted).
In their complaint, Relators allege that Bethany
Hospice violated the “false claim” and “make or use”
provisions of the FCA by submitting claims to Medicare for services rendered as a result of an illegal referral scheme and accepting payment from the government for those claims. The “false claim” provision imposes liability on anyone who “knowingly presents or
causes to be presented a false or fraudulent claim for
payment or approval[.]” 31 U.S.C. § 3729(a)(1)(A).
Similarly, the “make or use” provision imposes liability on anyone who “knowingly makes, uses, or causes
to be made or used, a false record or statement material to a false or fraudulent claim[.]” 31 U.S.C.
§ 3729(a)(1)(B). To successfully plead a claim under either provision, Relators must provide particularized
allegations “that [Bethany Hospice] actually submitted a false claim, and by extension, that the government actually paid” Bethany Hospice for the claim.
United States ex rel. Aguino v. Univ. of Miami, 250
F. Supp. 3d 1319, 1329 (S.D. Fla. 2017). Because, under either provision, Relators must first establish that
Bethany Hospice submitted a false or fraudulent
claim, the Court will address Relators’ claims under
the “false claim” and “make or use” provisions

36a
together. 11 See, e.g., United States ex rel. Klusmeier v.
Bell Constructors, Inc., 469 F. App’x 718, 721 n.5 (11th
Cir. 2015) (addressing claims under the false claim
and make or use provisions together).
In its motion to dismiss, Bethany Hospice argues
that “Relators . . . fail to allege any facts showing the
actual presentment of a claim to the government.”
(Doc. 100 at 15.) Additionally, Bethany Hospice argues
that Relators cannot support their conclusory allegations because, even without an example claim, Relators provide insufficient “indicia of reliability” that

Relators contend that Bethany Hospice violated 31 U.S.C.
§ 3729(a)(1)(B) by certifying compliance with the AKS on claims
submitted to the government for reimbursement. (Doc. 98 at 5.)
Notwithstanding that the Court found that Relators’ did not particularly allege the facts surrounding an alleged kickback
scheme, the Court notes that Relators only mention false statements in violation of 31 U.S.C. § 3729(a)(1)(B) once in their complaint. (Id. at 5.) Specifically, Relators state that “[e]ach of the
billing forms [certified] that Bethany Hospice had not violated the
AKS in conjunction with the submission of the bills” and “[t]hese
certifications (and the billing certifications) were false, and Bethany Hospice knew they were false.” (Id. at 5.) Relators provide no
facts to support when Bethany Hospice created false statements
or if Bethany Hospice was paid in connection with any false statements. As a result, the Court finds that Relators have failed to
plead this claim with the particularity required by Rule 9(b). See
Thornton v. Nat’l Compounding Co., Inc., No. 8:15-cv-2647-T36JSS, 2019 WL 2744623, at *19 (M.D. Fla. July 1, 2019) (dismissing a claim under § 3729(a)(1)(B) because the relater provided “[n]o factual allegations support [the] conclusion” that false
certifications were made where the relater only mentioned false
certifications in one paragraph of the complaint); Garden Care
Cntr., 2019 WL 6493972, at *6 (dismissing a claim under § 3729
(a)(1)(B) because “there [was] no indication of when the false narratives were provided or for which services or patients”).
11

37a
false claims were submitted to Medicare. (Id. at 17.)
The Court agrees.
“Because it is the submission of a fraudulent claim
that gives rise to liability under the [FCA], that submission must be pleaded with particularity and not inferred from the circumstances.” Corsello, 428 F.3d at
1013. Generally, the submission of a false claim is pled
with particularity by “attach[ing] a representative
sample claim” that includes “exact billing data (name,
date, amount, and services rendered) . . . .” Mastej, 591
F. App’x at 704; see also United States ex rel. Chase v.
HPC Healthcare, Inc., 723 F. App’x 783, 789 (11th Cir.
2018) (“One way to satisfy this requirement is by alleging the details of false claims by providing specific
billing information—such as dates, times, and
amounts of actual false claims or copies of bills.”).
Relators did not present specific details of false
claims or example claims that were allegedly submitted to the government by Bethany Hospice. (Doc. 121
at 4.) Rather, Relators argue that their personal
knowledge of Bethany Hospice’s internal operations
and Medicare referral rates provide sufficient “indicia
of reliability” to support their allegations that Bethany
Hospice actually submitted false claims. (Id.)
Relators are correct that the Eleventh Circuit has
“allowed FCA claims to proceed where clear ‘indicia of
reliability’ support the actual submission of a false
claim, even if the relator cannot offer particularized
allegations about a specific false claim.” Aquino, 250
F. Supp. 3d at 1332 (quoting Clausen, 290 F.3d at
1311). The Eleventh Circuit is “more tolerant towards
complaints that leave out some particularities of the
submissions of a false claim if the complaint also alleges personal knowledge or participation in the

38a
fraudulent conduct.” Matheny, 671 F.3d at 1230. “[A]
relator’s firsthand knowledge of a defendant’s actual
submission of false claims may, where supported by
appropriate factual allegations, provide ‘sufficient indicia of reliability’ to substitute for the particularized
allegations that Rule 9(b) generally requires.” Aquino,
250 F. Supp. 3d at 1332 (quoting Clausen, 290 F.3d at
1311); see also Mastej, 591 F. App’x at 704 (“[R]elators
with direct, first-hand knowledge of the defendant[’s]
submission of false claims gained through her employment with the defendant[] may have a sufficient basis
for asserting that the defendant[] actually submitted
false claims.”).
Bethany Hospice argues that Relators have failed
to “supply sufficient ‘indicia of reliability’ to support
Relators’” allegation that Bethany Hospice actually
submitted claims to the government. (Doc. 100 at 20.)
Specifically, Bethany Hospice argues that Relators
cannot support their allegations with personal
knowledge and rely only on mathematical probability
that Bethany Hospice submitted claims to Medicare
that were tainted by the alleged kickback scheme. (Id.)
In response, Relators contend that they pled more reliable allegations, based on their personal knowledge,
than the relators in Hill v. Morehouse Med. Assocs.,
Inc., No. 02-14429, 2003 WL 22019936 (11th Cir.
2003), United States ex rel. Walker v . R&F Props. Of
Lake Cty., Inc., 433 F.3d 1349 (11th Cir. 2005), and
Mastej, 591 F. A’ppx 693. (Doc. 121.) However, the
Court finds that Relators do not meet the “relatively
high bar for ‘indicia of reliability’ . . .” established by
these cases. Aquino, 250 F. Supp. 3d at 1332. Specifically, Relators “cannot rely on their ‘personal
knowledge or participation’ in the alleged fraud” to

39a
provide sufficient indicia of reliability. Carrel, 898
F.3d at 1277 (citing Matheny, 671 F.3d at 1227).
As a starting point, Relators’ did not describe
Bethany Hospice’s billing operations in as much detail
as the relator in Hill. The relator in Hill, a former employee of the defendant’s billing department, alleged
that the defendant was submitting fraudulent bills to
the government for reimbursement. 2003 WL
22019936, at *1-2. To support her allegations, the relator described in detail the defendant’s billing process, who engaged in the fraud, and the frequency
fraudulent bills were submitted to the government. Id.
Additionally, the relator described three specific instances in which she personally observed employees
change codes on bills to fraudulently secure reimbursement from Medicare. Id. Although the relator
could not identify specific patients associated with
false claims, the Eleventh Circuit found that the relator’s “factual allegations provide[d] the indicia of reliability” necessary because the relator pled that she
“was an employee within the billing and coding department and witnessed firsthand the alleged fraudulent submissions . . . .” Id. at *4. Moreover, the relator
“supported her legal theory with facts describing [the
defendant’s] billing process, the specific . . . codes that
were altered for each of the five billing schemes, and
the frequency of submission of each type of claim.” Id.
The details alleged in Hill highlight the relator’s
personal knowledge that the defendant submitted
false claims and exceed the factual allegations offered
by Relators in this case. Realtors conclusively state
that they “gained intimate knowledge of Bethany Hospice’s and Bethany Coastal’s billing protocols and operations” without providing any details of these

40a
operations. (Doc. 98 at 24.) Although Relator Helmly
claims that she “had full access to all billing and referral data for all patients . . .” and “she attended meetings with Ms. Best where . . . management discussed
site productivity . . .,” Relators do not describe even
one specific instance they observed a Bethany Hospice
employee submit a false claim. (Id. at 30.) “It is not
enough for the [relators] to state baldly that [they
were] aware of the defendants’ billing practices . . . .”
Mastej, 591 F. App’x at 704-705.
Relators case is also distinguishable from Walker.
In Walker, the relator, a former nurse practitioner for
the defendant, claimed that the defendant “filed false
claims for Medicare reimbursement by billing Medicare for services rendered by nurse practitioners . . . as
if those services were rendered ‘incident to the service
of a physician’ . . . .” 433 F.3d at 1353. Specifically, the
relator alleged that she personally participated in the
fraudulent billing because she was instructed to bill
her time as a physician. Id. Additionally, the relator
had a conversation with an administrator of the defendant where the administrator admitted that “[the
defendant] billed all nurse practitioner and physician
assistant services as rendered ‘incident to the services
of a physician.’” Id. at 1360. Because of the relator’s
participation in the fraudulent billing, the Eleventh
Circuit found that her “allegations [were] sufficient to
explain why [she] believed [the defendant] submitted
false or fraudulent claims.” Id. at 1360.
In contrast, Relators in this case do not allege that
they participated in the submission of fraudulent
claims to the government. Although Relators do allege
that they had conversations about fraudulent claims
with Bethany Hospice employees, including Ms.

41a
Jowers and Ms. Cliett, these conversations were not
had in conjunction with Relators’ participation in the
fraud. Relators’ vague and conclusory details about
their conversations with Bethany Hospice employees
do not amount to the participation and detailed conversation alleged in Walker.
Lastly, Relators’ argument that their allegations
are “nearly identical” to those in Mastej is misplaced.
The relator in Mastej was the vice president of the defendants’ company and, at one time, the CEO of a hospital operated by the defendants. 591 F. App’x at 70809. While the relator was CEO, another CEO asked
him to split the cost of “on-call coverage in exchange
for Medicare/Medicaid referrals.” Id. at 707. Additionally, the relator frequently attended case management
meetings in which every patient was discussed, “including how the services were being billed to each patient.” Id. Because the relator was “actively and heavily engaged in the [d]efendants’ business and revenue
operations . . .” and because the relator had “first-hand
knowledge of the [d]efendants’ submission of false interim claims to the government,” the Eleventh Circuit
determined that the relator provided the necessary indicia of reliability to support his allegations that false
claims were submitted. Id.
In contrast to the relator in Mastej, Relators in
this case do not allege facts indicating that they were
“actively and heavily engaged” in Bethany Hospice’s
billing operations. Although Relator Helmly allegedly
attended meetings where “site productivity” was discussed, she does not assert that she gained knowledge
of how “services were billed to each patient.” Mastej,
591 F. App’x at 707. Additionally, Relators’ status as
former employees of Bethany Coastal, not Bethany

42a
Hospice, further indicates that they were not actively
engaged in Bethany Hospice’s billing operations. Even
if the Court accepts Relators’ argument that Bethany
Coastal operated as merely another office of Bethany
Hospice (Doc. 98 at 31), Relators did not work in the
other Bethany Hospice offices and cannot rely on their
personal knowledge of those offices’ billing operation.
As a final attempt to provide some indicia of reliability to support Relators’ contention that Bethany
Hospice submitted false claims to the government, Relators highlight the number of Medicare patients that
doctors have allegedly referred to Bethany Hospice.
(Doc. 98 at 27.) Specifically, Relators allege that
“[f]rom the [third] quarter of 2016 through the [second] quarter of 2018,” the Bethany Hospice doctors referred 100% of their Medicare patients to Bethany
Hospice. (Id. at 28-29.) From this “Medicare claims
data,” Bethany Hospice infers that “Bethany Hospice
billed government health programs for the services
rendered to Medicare . . . patients referred by [the
Bethany Hospice doctors].” (Id. at 26.) In response,
Bethany Hospice argues that “[a]lthough Relators’ . . .
alleged ‘Medicare claims data’ may be more specific”
than Relators’ other allegations, Relators still fail to
plead that a false claim was submitted with particularity. (Doc. 100 at 8.) The Court agrees.
As an initial matter, the Court cannot “make assumptions about a . . . defendant’s submission of actual claims to the Government . . . .” Clausen, 290 F.3d
at 1312 n.21. By claiming that, based on the number
of Medicare referrals from doctors, Bethany Hospice
must have submitted a false claim to the government,
Relators are asking the Court to assume claims were
submitted. However, the Court cannot rely on

43a
“mathematical probability to conclude that” Bethany
Hospice “surely must have submitted a false claim at
some point.” Carrel, 898 F.3d at 1277.
Moreover, Relators have provided no facts as to
how they acquired this “Medicare claims data.” Relators did not offer public filings to support the data. See
Osheroff, 2012 WL 2871264, at *5-6 (finding a relator’s
allegation that the defendant actually submitted false
claims based on the defendant’s number of Medicare
patients was sufficient indicia of reliability because
the relator attached public filings that showed “thousands of sample claims that [the defendant] presented
to Medicaid for reimbursement”). Again, the Court
cannot “make unwarranted inferences about the submission of claims.” Id. Therefore, Relators have also
failed to provide the necessary indicia of reliability using alleged “Medicare claims data.”
In summary, Relators cannot plead “a mosaic of
circumstances that are perhaps consistent with their
accusation[]” that Bethany Hospice submitted false
claims without pleading any of those circumstances
with particularity. Carrel, 898 F.3d at 1277. Accordingly, the Court finds that Relators have failed to
plead their allegations that Bethany Hospice submitted false claims to the government for reimbursement
with the particularity required by Rule 9(b). As a result, Relators’ claims pursuant to the FCA are DISMISSED.
CONCLUSION
For the foregoing reasons, the Court finds that Relators’ have failed to plead their claims under the FCA
and the GFMCA with the particularity required by
Rule 9(b). Relators have had numerous opportunities

44a
to correct the deficiencies in their complaint and have
failed to do so. As a result, Relators’ Third Amended
Complaint (Doc. 98) is DISMISSED WITH PREJUDICE. The Clerk of Court is DIRECTED to close this
case.
SO ORDERED this 31st day of March 2020.

s/
WILLIAM T. MOORE, JR.
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA

45a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF GEORGIA
SAVANNAH DIVISION
Civil Action No. 4:16-cv-290-WTM-JEG
[May 13, 2019]
UNITED STATES OF AMERICA ex rel. JOLIE
JOHNSON et al.,
Relators,
v.
BETHANY HOSPICE AND PALLIATIVE CARE OF
COASTAL GEORGIA, LLC. Et al.,
Defendants.
THIRD AMENDED COMPLAINT
The United States of America and the State of
Georgia, by and through Relators Jolie Johnson and
the Estate of Debbie Helmly, bring this action under
31 U.S.C. §§ 3729-3732 (“False Claims Act”) and
O.C.G.A. § 49-4-168.1, et seq. (“Georgia False Medicaid
Claims Act”) to recover all damages, penalties, and
other remedies established by the False Claims Act on
behalf of the United States and Relators, and the State
False Medicaid Claims Act on behalf of the State of
Georgia and Relators, and would show the following:

46a
I.

JURISDICTION AND VENUE

1. This action arises under the False Claims Act,
31 U.S.C. § 3729, et seq. and Georgia False Medicaid
Claims Act, O.C.G.A. § 49-4-168.1, et seq.
2. This court has personal jurisdiction over the Defendants pursuant to 31 U.S.C. § 3732(a) in that Defendants do or transact business in this jurisdiction
and portions of the violations of the False Claims Act
described herein were carried out in this district.
3. This Court has subject-matter jurisdiction over
this action pursuant to 28 U.S.C. §§1331 and 1345 and
31 U.S.C. § 3732(a) and (b).
4. Venue is proper in this district under 28 U.S.C.
§ 1391(b) and (c) and under 31 U.S.C. § 3732(a) and
O.C.G.A. § 49-4-168.6.
II.

THE PARTIES

5. Defendant Bethany Hospice and Palliative
Care of Coastal Georgia, LLC (f/k/a Bethany Hospice
of Coastal Georgia, LLC) (“Bethany Coastal”) is a for
profit provider of hospice care. Bethany Coastal has
one office in Claxton, Georgia, which is located at 109
South Duval Street, Claxton, Georgia. Bethany
Coastal exclusively (or nearly exclusively) funds its operations through receipt of Medicare/Medicaid dollars.
Bethany Coastal’s Medicare National Program Identifier (“NPI”) is 1548501000. Bethany Coastal has retaliated against Relators in violation of the law.
6. Bethany Hospice and Palliative Care, LLC
(f/k/a Bethany Hospice, LLC) (“Bethany Hospice”) is a
for profit provider of hospice care. Bethany Hospice
has four locations in Georgia with offices in Douglas,
Thomasville, Waycross, and Valdosta. At various
times, Bethany Hospice and Palliative Care, LLC also

47a
maintained an office in Quitman, Georgia. The Douglas office is located at 1400 Peterson Avenue North,
Suite 12, Douglas, Georgia. The Thomasville office is
located at 2012 East Pinetree Boulevard, Suite A,
Thomasville, Georgia. The Waycross office is located
at 411 Lister Street, Waycross, Georgia. The Valdosta
office is located at 2700 North Oak Street, Building B,
Valdosta, Georgia. Bethany Hospice exclusively (or
nearly exclusively) funds its operations through receipt of Medicare/Medicaid dollars. Its Medicare NPI
is 1972709160. Bethany Hospice is responsible for submitting and causing false claims to be submitted to the
Government for the per diem reimbursement for patients whose referrals were tainted by kickbacks. It is
also responsible for making, using, or causing to be
made or used, a false record or statement material to
a false or fraudulent claim tainted by kickbacks.
7. Relator Jolie Johnson began working for Bethany Coastal in December 2014 as a marketer and was
terminated July 2015.
8. Relator Debbie Helmly began working for Bethany Coastal in December 2014 as an administrator
and was terminated July 2015. Relator Helmly passed
away on March 27, 2018. Her estate has substituted
as a party to this litigation.
III. FACTUAL ALLEGATIONS
9. Hospices are paid a per diem rate based on the
number of days and level of care provided for a hospice
patient. Medicare Benefit Policy Manual, Chapter 9, §
40; 42 C.F.R. § 418.302. The United States reimburses
Medicare providers with payments from the Medicare
Trust Fund, through CMS, as supported by American
taxpayers. Payments are typically made by Medicare

48a
directly to health care providers like Bethany Hospice
and Bethany Coastal rather than to the patient. The
Medicare provider submits its bill directly to Medicare
for payment.
10. In particular because any hospice patient automatically generates daily payments from the Government, absolutely no remuneration of any kind
(kickbacks) can be exchanged for referrals of hospice
patients. “The prohibition against kickbacks is a core
requirement whose violation eviscerates the value of
the service the Government has bargained for: an unbiased determination by a medical provider that a certain medical procedure, device, or drug is ‘reasonable
and necessary’ for the treatment of a patient.” Statement of Interest of the United States of America in Response to Defendants’ Motion to Dismiss, U.S. ex rel.
Wood v. Allergan, Inc., Civil Action No. 10-CV-5645, at
4 (Oct. 19, 2016).
11. The Medicare and Medicaid Fraud and Abuse
Statute 42 U.S.C. § 1320a-7b(b) or Anti-Kickback
Statute (“AKS”) was enacted under the Social Security
Act in 1977. The AKS arose out of Congressional concern that payoffs to those who can influence health
care decisions will result in goods and services being
provided that are medically inappropriate, unnecessary, of poor quality, or even harmful to a vulnerable
patient population. To protect the integrity of federal
health care programs from these difficult to detect
harms, Congress enacted a prohibition against the
payment of kickbacks in any form, regardless of
whether the particular kickback actually gives rise to
overutilization or poor quality of care. The AKS also
specifies that “a claim that items or services resulting
from a violation of this section constitutes a false or

49a
fraudulent claim for purposes of [the FCA].” 42 U.S.C.
§ 1320a-7b (2013). This includes any claim submitted
for a patient who was referred by someone receiving a
kickback. The statute ascribes liability equally to both
sides of an impermissible kickback relationship.
12. The AKS prohibits any person or entity from
making or accepting payment to induce or reward any
person for referring, recommending, or arranging for
the purchase of any item for which payment may be
made under a federally-funded health care program.
42 U.S.C. § 1320a-7b(b). Essentially, if just one purpose of the payment was to reward referrals or to induce future referrals, the AKS has been violated. This
is true even if the doctor performs some medical service for the money. It is not even required that it be
the primary purpose—just one purpose of the payment. In other words, a defendant can have 99 lawful
reasons to enter a relationship, but if one other reason
is to expect referrals or reward referrals, it is illegal.
It is irrelevant if the funds would have been spent anyway or that Medicare funds were not used to make
the illegal payment.
13. Hospice providers are reimbursed based upon
their submission of a single electronic or hard-copy
form known as CMS Form 1500 to the appropriate fiscal intermediary or Medicare claims processor. Each
time it submits a claim for payment by Medicare, a
provider certifies that the claim is true, correct, and
complete, and complies with all Medicare laws and
regulations.
14. Bethany Hospice is a Medicare institutional
service provider, and as such, certified compliance
with the AKS prior to any claim submissions upon executing CMS Form 855A. Entities that execute CMS

50a
Form 855A make the following certification: “I agree
to abide by the Medicare laws, regulations and program instructions that apply to this provider. The
Medicare laws, regulations, and program instructions
are available through the Medicare contractor. I understand that payment of a claim by Medicare is conditioned upon the claim and the underlying transaction complying with such laws, regulations, and program instructions (including, but not limited to, the
Federal anti-kickback statute and the Stark law), and
on the provider’s compliance with all applicable conditions of participation in Medicare.” Bethany Hospice’s
Medicare certification date occurred on August 08,
2000. Its unique CMS hospice identification number is
111587. Each of the billing forms echoed these certifications that Bethany Hospice had not violated the
AKS in conjunction with the submission of the bills.
These certifications (and the billing certifications)
were false, and Bethany Hospice knew they were false.
15. Relators came to Bethany Coastal from another hospice—Spanish Oaks. From 2011 through October 2014, Relator Helmly ran the Claxton office of
Spanish Oaks Hospice and Relator Johnson worked
for that office. By October 2014, Relators were looking
for a different hospice to work for. Around that time,
Ms. Ava Best and Mr. Berkley M. “Mac” Mackey were
looking to open a Bethany Hospice location in the
Claxton area.
16. Ava Best is an owner and the president and
CEO of both Bethany Hospice and Bethany Coastal.
17. Berkley M. “Mac” Mackey, III is an owner and
officer in Bethany Hospice and Bethany Coastal.

51a
18. Around October/November 2014, Ms. Best and
Relator Helmly agreed that Relator Helmly would become the administrator of what would become Bethany Coastal and get a 2.5% ownership. During these
negotiations, Ms. Best explained to Relator Helmly
that since opening Bethany Hospice in 2007, she had
offered each of her medical directors and administrators an ownership stake in Bethany Hospice and Bethany Coastal. Once they were owners, Ms. Best explained that Bethany Hospice or Bethany Coastal
would issue dividends to each owner/investor based on
how many patients were put under service at the
owner/investor’s site as reflected in the site’s annual
census report. Ms. Best further explained that if the
owner/investor’s site made the company enough
money through patient enrollment, then the owner/investor stood to receive substantially more in dividends. According to Ms. Best, meeting revenue benchmarks also enabled part-owners to acquire additional
ownership shares in subsequent years. Ms. Best also
hired Relator Johnson as a marketer.
19. Relator Helmly had a prescheduled operation
that would occupy her through December 2014, so she
and Ms. Best agreed she would start to open Bethany
Coastal after that. Mr. Mackey put both Relators under the insurance of his company starting December 1,
2014 and paid initial salaries to Relators for work at
Bethany Coastal. Everyone worked to open Bethany
Coastal in January 2015.
20. Because of dissatisfaction with their time at
Spanish Oaks and the way their employment was terminated, Relators Helmly and Johnson sought legal
assistance to deal with Spanish Oaks. Because Ms.
Best insisted that Relators approach her for

52a
permission to take any time off, in January 2015, Relators asked for one day off. Before she gave her permission, Ms. Best peppered them with questions on
why they needed a day off. For Relators, it was a very
uncomfortable topic to discuss. Eventually, Ms. Best
figured that it had something to do with their former
employment and said yes. This was the first time Relators had encountered Ms. Best’s paranoia and interrogative style of management. However, it was not out
of character for Ms. Best as she was an extremely demanding boss who required immediate attention to
whatever was on her mind at the time. A good example
of her overbearing paranoia came a few years later
when an employee was interrogated by Ms. Best about
the fact that he had opened his door seven times on a
particular day and asked whether he was seeing patients each of those seven times. Ms. Best had a practice of engaging in surveillance of the office and attached tracking devices on all the cars (which included
tracking the number of times the door opened).
21. The first attorney Relators interviewed did not
do the type of work they needed and referred them to
another attorney. The second time they needed a day
off to meet with an attorney, Ms. Best again peppered
them with questions. Relators did not know enough
about their putative meeting at that time to provide
any details. However, the day after they met with this
attorney, Ms. Best became relentless with her questions and continued to pepper Ms. Helmly with questions through the end of January. Over this time, Relator Helmly shared with Ms. Best that they were
meeting with an attorney in Atlanta and that this matter had to do with their prior employment and longterm hospice patients.

53a
22. The Medicare identification number used for
Bethany Coastal was one Ms. Best purchased from
Alex Patterson who owned Presbyterian Hospice. Initially, she used this number for the Bethany Hospice
office in Quitman, Georgia. Then, once Ms. Best decided to open the office in Claxton, she transferred the
number over to Bethany Coastal. Once a number is
purchased, the purchaser is required to do a CHOW
(Change of Ownership). It is unclear whether or when
Ms. Best did a CHOW for Bethany Coastal, which she
opened on January 1, 2015, because it appears that
she was operating as Presbyterian Hospice for some
time after that.
23. Part of Relator Helmly’s responsibilities entailed overseeing all the billing at Bethany Coastal.
When Relator Helmly or employees under her supervision would pull up any of the billing that was needed
before signing up a new patient, it would still show up
as the Presbyterian Hospice in Quitman. Bethany
Coastal never had permission to work in Claxton,
Georgia. The Presbyterian number issue continued for
at least two months after Bethany Coastal was up and
running. Relators contacted Ms. Best about this, but
she just told them not to worry about it.
24. In February of 2015, Relators left work for a
day to meet with their attorney in Atlanta. Relators
had received information concerning their case from a
former co-worker and kept it in a locked drawer in Relator Helmly’s office. They also kept correspondence
with their attorney, Mike Bothwell, in that locked
drawer. While Relator Helmly was out of her office,
Ava Best had an employee search Relator Helmly’s office including the locked drawers in her desk. From
this search, Ms. Best learned about their

54a
whistleblower attorney, Mike Bothwell, and much of
the basis of their lawsuit. However, Ms. Best did not
confront Ms. Helmly about this information until the
end of March 2015. At the end of March, Ava Best told
Relator Helmly that she did not want “whistleblowers
affiliated with [her] business.” She mentioned the
whistleblower attorney, Mike Bothwell, by name even
though Relators had not told her that was the name of
the attorney. Ms. Best insisted that Ms. Helmly not be
a part of the whistleblower lawsuit because Ms. Best
“did not want a whistleblower as [her] administrator.”
Relator Helmly relented and promised Ms. Best that
her name would not be on any pleadings, but told her
Relator Johnson would still be a whistleblower against
their former employer.
25. Ms. Best never reprimanded either Relator for
work-related issues or performance issues. Relators
were never approached about any negative aspect of
their work and were never written up or disciplined in
any way. In fact, the time between the January 2015
opening and May 2015 was characterized by high
praise from both Ava Best and Mac Mackey. Some of
the praise from Mac Mackey was his delight that Relators had opened an office where Bethany Hospice
was an unknown entity and had made it so profitable
so quickly. Mr. Mackey would text Relator Helmly saying how much he liked the numbers he was seeing (and
similar comments).
26. However, as much as Ava Best and Mac
Mackey were thrilled with Relators’ performance,
there were battles bubbling up with how Ava Best and
Mac Mackey grew the rest of Bethany Hospice by
providing remuneration to referral sources and potential referral sources in exchange for or as a reward for

55a
referrals. Ms. Best first provided insight into her practice of providing referral sources remuneration when
she explained to Relator Helmly during salary negotiations that she issued her medical directors and administrators dividends that fluctuated according to
how many patients (including Medicare and Medicaid
beneficiaries) were put under service at the owner/investor’s site and how much money the site made for
the company that year. This conversation, coupled
with subsequent ones focused on owner/investor compensation and referral practices, led Relators to conclude that these were kickbacks, they violated the
AKS, and were illegal. In fact, the impetus for this
FCA lawsuit is that Ms. Best and Mr. Mackey determined to grow and maintain their business through
kickbacks.
27. Prior to forming Bethany Hospice, Ms. Best
worked for Odyssey Hospice (“Odyssey”). In fact, Bethany Hospice rose out of the local ashes of Odyssey. Odyssey asked a national hospice owner to buy some of
the Georgia hospice locations Odyssey was seeking to
divest from. He bought the Valdosta office, and renamed it Bethany Hospice. He brought Ava Best on
(from Odyssey in Valdosta, Georgia) to work for Bethany Hospice, but disagreements with Ava Best and
Mac Mackey over business practices prompted the
original buyer to have them buy him out.
28. From conversations with Ms. Best, Relators
knew Ms. Best was well aware that the way Odyssey
was operated was illegal. At one point, she acknowledged to Relators that she knew Odyssey got referrals
by giving medical directors kickbacks. She was aware
that Odyssey was under local HHS-OIG scrutiny for
providing illicit kickbacks to medical directors, and

56a
that Odyssey was hit with a $25 million settlement by
DOJ for FCA violations. Relators also talked to Ms.
Best about her prior work for another company near
Brunswick that was raided by the DOJ. She told Relators they came into her office with guns and demanded
billing records and charts. She said that the DOJ convicted the owner of that company for Medicare or Medicaid fraud. Ms. Best said she knew how these things
went, having been a party to a DOJ Medicare fraud
investigation.
29. However, Ms. Best’s experience with these
companies provided her with conflicting conclusions.
On the one hand, Ms. Best and Mr. Mackey knew that
paying for referrals was the most effective way to get
referrals, but, on the other hand, they knew that the
Government did not like remuneration for referrals.
Ms. Best and Mr. Mackey tried to have the best of both
worlds: paying the kickbacks to referring physicians,
but hiding or masking them as compensation to medical directors and part owners of Bethany Hospice.
From conversations Realtors had with Ms. Best, it was
clear they were sure they would never get caught.
30. Ms. Best revealed the terms of the kickbacks
when negotiating ownership with Relator Helmly
prior to December 2014. At the outset of the negotiation for employment, Ms. Best told Relator Helmly
that she would follow the same protocol to add compensation for Relator Helmly that she used to pay referring doctors for their referrals. The offer concerned
a below market investment for a percentage of the
company and huge returns when referrals came pouring in. Focused on census and referrals as she was, Ms.
Best indicated that she would determine the amount
of return based on the number of patients put under

57a
service. Ms. Best informed Relator Helmly that her
formulas for compensation always related to the number of referrals or the census because that is what Ms.
Best wanted to incentivize. Ms. Best paid all the medical directors who owned shares in Bethany Hospice
according to this same formula, and the payments varied depending on the volume of referrals. Relators
thought this discussion was odd, but Relators did not
address this issue at the time because it required more
investigation.
31. In February of 2015, after Relators had opened
Bethany Coastal from scratch and had started to see
success (for which Ms. Best and Mr. Mackey complimented them), an issue came up with regard to needing a medical director for the Claxton office. Relators
referred Ava Best and Mac Mackey the name of Dr.
Thomas Miller, a family physician, as the potential
medical director.
32. When informed that Ava Best would give an
interest in the company to all her medical directors,
and this interest would provide them with “a large
amount of money” for maintaining a high census and
a lot of referrals, Dr. Miller indicated that this arrangement was unethical and he would not participate. Dr. Miller said that he did not think it was ethical for him to have ownership in a business for which
he was also the medical director. He said he felt that
would be a conflict of interest. Relator Helmly was influenced by Dr. Miller's reaction and concluded that
Bethany Hospice was giving illegal kickbacks to doctors for referrals.
33. Even after Dr. Miller pointed out the unethical
nature of these payouts, Bethany Hospice continued to
distribute investment income to referring physicians.

58a
Bethany Hospice’s decision to proceed with these financial arrangements—even after a clinician with
whom they vested medical director privileges voiced
his concerns—demonstrates their continued intent to
provide kickbacks.
34. According to conversations Relators had with
Ms. Best, Bethany Hospice had compensation arrangements with numerous medical directors and doctors that gave rise to kickbacks. These arrangements
contained the following forms of payment: a monthly
salary, dividends, and/or monthly bonuses. The doctors would receive payments as inducement for or reward for referrals of patients, which constitute kickbacks. Even the payment of the salary was not done
after a fair market value (“FMV”) analysis and was
made to doctors for referrals rather than for the obligation of an appropriate amount of actual work for the
hospice. The schedule or interval of work is not written
and not followed. The compensation is not consistent
with FMV or an arms-length transaction and takes the
volume or value of referrals into account. Bethany
Hospice has more “medical directors” than is commercially reasonable for their census, in part because they
are paying for referrals. For a period, while most hospices listed their medical directors, Bethany Hospice
did not. It knew it had too many medical directors and
that it needed to keep a low profile to avoid detection
and ensure continued revenue streams.
35. Ms. Best uses Bethany Hospice and Bethany
Coastal’s Electronic Medical Record (“EMR”) system,
Consolo, to track referrals from the various doctors so
she can determine how much she is paying for each
referral. Ms. Best requires staff to record every new
admission, the date, and the physician who referred

59a
the patient on a white board. This information is also
added to the Consolo program. At the Douglas office,
Tonya Smith, the admissions coordinator, inputs the
referral source for each admission into Consolo. Once
entered, Ms. Best generates weekly and monthly reports detailing how many referrals each physician has
made. Jeneen Cliett (at various times, the Vice President of Bethany Hospice and the Clinical Director of
Bethany Hospice’s Douglas office) and Monica Jones
(Head of Quality Assurance for both Bethany Hospice
and Bethany Coastal) showed Relator Helmly how to
run these reports and informed her that Ms. Best uses
these reports to determine how much to pay referral
sources. According to Ms. Cliett and Ms. Jones, Ms.
Best and Mr. Mackey routinely reviewed the return on
investment (“ROI”) for their kickbacks. According to
Ava Best, physicians who refered the most patients receive the largest payments.
36. As Ms. Best explained to Relators, Bethany
Hospice cloaks some payments to its medical directors
as investment interests. Instead of providing these individuals with payments directly, Ms. Best first has
them purchase an ownership stake in Bethany Hospice without obtaining a proper valuation and without
assessing a commercially viable buy-in. Once they are
partial owners in Bethany Hospice, Ms. Best issues
dividends to these individuals. According to Ms. Best,
these amounts fluctuate according to how many patients are put under service at the owner/investor’s
site and are not proportional to the amount invested.
The terms of the investment are related to the expected volume of referrals or the amount of business
that could be generated by the owner/investor. Ms.
Best said the “owner/investors” are required to make

60a
referrals to Bethany Hospice and only those who are
in a position to make referrals are considered or offered an investment opportunity. This is a sham device
to hide the payment for referrals.
37. The Dr. Daly situation makes it clear that this
was a kickback scheme and was never intended as a
legitimate investment. Dr. Daly is a sleep medicine
specialist based in Savannah, Georgia (with another
office in Douglas). His practice focuses on performing
sleep studies on patients to diagnose them with disorders such as obstructive sleep apnea. Early on in their
tenure, Relators found out that Dr. Daly had been continuously approaching Ms. Best and Mr. Mackey about
becoming an investor in Bethany Hospice or Bethany
Coastal because Mr. Mackey asked Relators about him
as a potential investor. Mr. Mackey discussed this
with Relators because Relator Johnson knew Dr. Daly
from when she worked at Hospice Advantage. Dr. Daly
had been the medical director during Relator Johnson’s tenure with Hospice Advantage. When Relators
informed Mr. Mackey that Dr. Daly never referred patients to Hospice Advantage because of his niche practice, Mr. Mackey said “Forget it. We do not need him
if he does not and will not refer patients to Bethany
[Hospice].” These remarks highlighted the fact that
Bethany Hospice and Bethany Coastal’s primary objective in obtaining investors was to lock up referral
streams rather than investment streams. Mr. Mackey
and Ms. Best wanted to look like they complied with
the law, while intending to make payments based on
the volume of referrals from these doctors.
38. The value of Bethany Hospice’s ownership interest is part of the remuneration. Referring physicians are allowed to pay below market value for their

61a
ownership, but, after their referrals grow the company, they can “cash out” for an unbelievably higher
rate. Accordingly, there is remuneration in the initial
value and the subsequent value that is inappropriate,
and there is the fact that referrals make the business
more profitable and the investing doctors profit by
their referrals. For example, Dr. Marshall Tanner purchased a 5% share in Bethany Hospice for approximately $20,000 in 2007. Other doctors bought similar
percentages later. In exchange for Dr. Tanner’s contribution, he along with Drs. Justin Harrell, David
Arnett, Stan Sinclair, Conrad Harper, and Richard
Wheeler received intermittent dividend distributions
from Bethany Hospice (sometimes monthly and sometimes annually). These ranged from approximately
$10,000 to $20,000 annually according to Dr. Tanner.
By the time Dr. Tanner sold his shares in 2014 (then
at 10%), he was paid approximately $330,000 (the sale
price)—an 825% increase in value.
39. There are a number of medical directors for
Bethany Hospice or other doctors who are “owner/investors” and get extra money from Bethany Hospice.
Dr. David Arnett has at various times served as Bethany Hospice’s medical director for its Douglas site. He
stepped down from this role to become Bethany Hospice’s Chief Medical Officer, and in his place, Drs. Justin Harrell and Conrad Harper became Medical Directors for Bethany Hospice’s Douglas site. Drs. Richard
Wheeler and Stan Sinclair serve as medical directors
for Bethany Hospice’s Valdosta site. Notably, Dr. Sinclair serves in this capacity despite the fact his entire
practice is located in Douglas, Georgia. Each of these
physicians receive dividends based on how many patients their site puts under census. The vast majority

62a
of revenue for Bethany Hospice comes from “owner/investor” referrals. In certain periods, around 95% of
Bethany Hospice’s referrals came from doctors with a
financial interest in Bethany Hospice.
40. Bethany Hospice’s Douglas location has a
large concentration of these doctors, and they are
linked with the county hospital. “Bethany Hospice doctors” include Drs. Arnett, Sinclair, Harrell, and Harper. They work or have worked at Coffee Regional
Medical Center (“CRMC”). In fact, these doctors sit on
or have sat on the Coffee County Hospital Board. Each
of these “Bethany Hospice doctors” refers every single
patient they control to Bethany Hospice. Other than
outlier occasions, such as the family demanding another hospice, or the patient being located outside
Bethany Hospice’s geographic area, every single patient is referred to Bethany Hospice. “Bethany Hospice
doctors” (Arnett, Sinclair, Harrell, and Harper) also
bought out the company that provides hospitalists to
CRMC and direct referrals from them as well. After
they bought out the hospitalist company, Bethany
Hospice became CRMC’s number one referral of hospice patients (with around 90% of its referrals). This
statistic is even more profound when the referrals to
home health agencies that refer to Bethany Hospice
are taken into account. It is as if payments to these
doctors alone has the power to direct 80-90% of the
county’s hospice patients to Bethany Hospice (and it
does).
41. Bethany Hospice’s kickbacks have worked as
intended. Bethany Hospice’s Medical Directors and
part-owners did not refer any patients to Bethany Hospice prior to establishing a financial relationship.
Once established, however, those physicians with a

63a
financial interest in Bethany Hospice began referring
every Medicare and Medicaid patient they could to
Bethany Hospice. Dr. Harper, for instance, only referred two such patients to Bethany Hospice prior to
receiving kickbacks from Bethany Hospice. However,
once his affiliation began, all of Dr. Harper’s referrals
for hospice care that he could send to Bethany Hospice
were sent to Bethany Hospice.
42. In fact, while nearly none of their referrals
went to Bethany Hospice before their financial arrangements, afterwards, nearly all of the “Bethany
Hospice doctors’” referrals for hospice services have
gone to Bethany Hospice. Coffee County is a perfect
example of the effectiveness of these kickbacks. Using
referral information housed in the Consolo program
and comparing it to the total deaths in the county, it
is clear that Bethany Hospice has almost all the hospice business in Coffee County. In 2015, for example,
381 people died in Coffee County, and of those, 327
were patients of Bethany Hospice. Nearly all of these
came from Drs. Arnett, Harrell, Harper, and Sinclair.
Even assuming that all the deaths that year were preceded by hospice care, Bethany Hospice would have
had at least 86% of all hospice patients that year. Making a reasonable adjustment to account for non-hospice deaths would push that percentage to almost
100%. Whether it is 86% or 99%, no one could argue
the effectiveness of Bethany Hospice’s kickbacks or
the loyalty it has bought from the “Bethany Hospice
doctors.” During their investigation, Relators confirmed all the facts about the “Bethany Hospice doctors” with Bethany Hospice former employees who
worked in Douglas and confirmed the referral patters
from CRMC and the “Bethany Hospice doctors” from

64a
data obtained from Medicare claims. Therefore, the referral data mentioned in this complaint tracks Medicare patients that have been referred to Bethany Hospice by the “Bethany Hospice doctors”, and Bethany
Hospice has submitted claims to Medicare for these referred patients and been paid the hospice per diem by
Medicare.
43. In March 2015, Relator Johnson actually engaged Ms. Best in a conversation about doctor ownership in Bethany Hospice. Before the conversation, Relator Johnson had been looking into this matter and
found that Odyssey had a similar scheme to pay directors through their retirement rather than directly. Relators knew that Ms. Best would know that because
she worked there. She reminded Ms. Best that SouthCoast Medical in Savannah had an agreement with
Odyssey Hospice like the Bethany Hospice agreement,
but when Odyssey was bought out, the new company
deemed the agreement to be “illegal” and dissolved the
agreement. Ms. Best said she had “found a way around
this issue.” Ms. Best said that she had found a way to
do it so she would not get caught. She indicated that
she could create a (sham) agreement that would mask
the payment to doctors for referrals. She said that by
making potential referral sources medical directors
and medical directors “part owners” she would not get
caught. Ms. Best mentioned several times that her
medical directors were “part owners” in Bethany Hospice. These remarks not only illuminate the scheme
employed, but also demonstrate Ms. Best’s clear intent
to funnel kickbacks through a sham device. This conversation made it clear to Relators that they had to
continue to investigate and continue conversations

65a
like this to persuade Ava Best and Mac Mackey to stop
their illegal behavior.
44. Continued investigations revealed that physicians receiving kickbacks from Bethany Hospice cut
regulatory corners when referring Medicare and Medicaid beneficiaries to Bethany Hospice, ostensibly to
maximize their bonuses and dividends. For instance,
Relators learned through a contact with Atkinson Visiting Nurses Services, Inc. that a fellow employee in
charge of receiving all physician orders for home
health and hospice care had discovered that physicians with a financial interest in Bethany Hospice, including Drs. Arnett, Sinclair, and Harper, referred patients to Bethany Hospice without informing the patient (including Medicare and Medicaid beneficiaries)
of alternate facilities that could provide hospice care.
While all other physician orders would denote that the
physician had discussed treatment and facility options
with the patient, orders from providers linked to Bethany Hospice lacked this information. Their orders, by
contrast, would merely state “refer to hospice” with the
understanding that the patient would be sent to Bethany Hospice. Similarly, Jeneen Cliett instructed former Bethany Hospice nurse Tabitha Castillo to admit
automatically any Medicare or Medicaid beneficiary
referred by Dr. Sinclair for General Inpatient (“GIP”)
care without evaluating whether the patient qualified
for GIP (and the corollary increase in reimbursement).
45. Ms. Best was already paranoid and concerned
about the existence of “whistleblowers” in her employ.
Unbeknownst to Relators, she had previously raided
Ms. Helmly’s personal, locked office areas to make
sure Relators were not blowing the whistle on Bethany
Hospice. The results of the raid showed that the

66a
whistleblowing was confined to Spanish Oaks, but Ms.
Best remained uneasy.
46. A few more related incidents played into Ms.
Best’s paranoia about Relators blowing the whistle on
Bethany Hospice. One of these incidents involved a series of additional kickback offers to referring physicians (including Drs. Arnett, Harrell, Harper, Sinclair,
and Wheeler) to take their wives on a paid vacation
and having food, hotels, and expenses and such paid
by Bethany Hospice. The offers to doctors went out in
May 2015 for a trip in August 2015. Bethany Hospice
sent the top referring doctors and their wives on a trip,
and paid airfare, hotel, and food for both the doctors
and their wives. Relators tried to persuade Ms. Best
that this was inappropriate, but she didn’t listen. The
only physician to decline this offer was Dr. Thomas
Miller, the same physician who declined Ms. Best’s offer for an ownership stake in Bethany Coastal. Again,
he stated that this type of remuneration represented a
conflict of interest. Although Ms. Best felt this offer
would ingratiate her referral sources to Bethany Hospice, her conversations about it with Relators also increased Ms. Best’s paranoia about Relators blowing
the whistle on her kickback schemes.
47. Unbeknownst to Relators, they played right
into Ms. Best’s whistleblower paranoia. In the same
timeframe as the discussions about doctor trips, in
May, Relators went on vacation to Florida. During
that trip, Relator Helmly called Ava Best and, for the
first time since their January agreement, broached the
issue of putting Relator Helmly’s name on the lawsuit
to be filed against Spanish Oaks. Ms. Best agreed saying that she was not going to ask Relator Helmly to
forego the money she could possibly get from the case.

67a
However, after Relators came back from Florida, Ava
Best’s attitude toward them markedly changed.
48. Apparently, the last whistleblower straw came
when Relators had to take time off in June to meet
with the Government. Ms. Best again peppered Relators with questions about this time off. However, this
time was different and they responded that they could
not tell her about it. At this time, contrary to prior discussions, a case had been filed and a federal judge had
entered a seal order gagging Relators from discussing
the case.
49. After the June meeting with the DOJ that Relators could not discuss, Ms. Best and all employees
“loyal” to Ms. Best started a harassment campaign
against Relators trying to get them to quit so she
would be “protected” from a retaliation claim. When
Ms. Best realized that Relators were not so easily going to quit, the harassment got worse. Ms. Best and
those “loyal” employees started fabricating things
about Relators to “justify” the retaliatory discrimination and possible future termination if the harassment
did not work. Even though Ms. Best tried to create a
pretext for termination, she failed to create a contemporary record. Neither Relator was ever written up for
anything nor officially disciplined in any way—just
harassed. In creating this fake pretext, Bethany
Coastal did not even follow its own policy manual.
50. Part of the escalation of harassment and discrimination resulted in an unmerited demotion.
Shortly after the visit with the Government that Relators could not discuss, Ava Best and Mac Mackey demoted Relator Helmly to field nurse without explanation or reason. A few weeks later, Ava Best escalated
things again by threatening to tell Relator Helmly’s

68a
old boss (at Spanish Oaks) “everything,” including telling him about the lawsuit Ms. Best assumed had been
filed. She also threatened to out the Spanish Oaks employee who had helped Relators with their lawsuit.
This was the same week Relator Helmly finally found
out that Ava Best and Ms. Best’s “loyal” employees had
been going through Relator Helmly’s personal information in her locked room and her locked desk on a
regular basis. Whenever Relator Helmly was gone, she
locked her door and only she and Ava Best had a key
to her office. Yet, on a regular basis, someone who had
a key had been in Relator’s office and gone through her
personal things.
51. Relators were stressed and mortified by this
conduct and these threats. Then, on July 28, 2015, Ms.
Best called Relator Helmly and told her to come into
the office. Relator Helmly called Relator Johnson to
tell her she was worried about possible retaliation at
the proposed meeting—especially in light of Ava Best’s
most recent threats. Relator Johnson was very concerned Ava Best was going to do something to retaliate
for their standing up to her for her illegal activities. To
protect against possible whistleblower retaliation, Relator Johnson texted Relator Helmly at around noon
on July 28, 2015 to tell her to have their whistleblower
attorney on the line during the conversation (or to at
least to record the conversation). However, Relator
Johnson accidently sent the text to the Bethany
Coastal group text, which included Ava Best herself.
Within minutes of finding out that Relators were trying to protect themselves against whistleblower discrimination by including their whistleblower attorney
(about whom Ms. Best learned by ransacking Relator
Helmly’s desk), Ava Best had called both of them and

69a
told them they could claim to resign to save face or
they could be fired, but, either way, she was firing
them that day.
52. Ms. Best and other Bethany Hospice and
Bethany Coastal managers told Bethany Coastal employees that Relator Helmly resigned because of her
health. They also told others that Relator Helmly resigned to pursue her education. Ms. Best never told
anyone (including Relator Helmly) that she was being
fired for any lack of productivity or for any improper
behavior. Ms. Best never told Relator Johnson that she
was being fired for lack of productivity or any improper
behavior. Ms. Best also never indicated that to anyone
else at Bethany Hospice or Bethany Coastal. Ironically, Relator Johnson had three referrals for Bethany
Coastal in her hand at the time Ms. Best fired her. In
fact, she had averaged about 14 patients a month for
the several months prior to July 28th. That did not matter to Ava Best, as she wanted their investigation of
illegal activities to stop, she wanted their questioning
of her illegal policies to stop, she did not want a whistleblower as her administrator or at her companies,
and she was concerned that Relators had or might
blow the whistle on Bethany Hospice. Over time, Ms.
Best has tried to fabricate excuses and pretexts for Relators sudden disappearance from Bethany Coastal after they started and built the entire office from
scratch. However, Bethany Coastal’s history undermines this revisionist history as other employees who
actually engaged in the type of behavior Ms. Best later
ascribed to Relators were never disciplined.
53. The harassment and discrimination continued
after the termination. Additional discrimination for
protected activity included not allowing Relators to

70a
clean out their offices. Ms. Best went through their
things and gave them back what she wanted to give
back to them. In addition, knowing that Relators had
used information from then current employees of their
former employer in their reporting to the Government,
Ms. Best forbade anyone working for Bethany Hospice
and Bethany Coastal from having any contact with Relators for any reason. Bethany Coastal also blackballed Relators and did what it could to prevent them
from obtaining subsequent employment in the area
and the industry. Ms. Best, the head of Bethany
Coastal’s HR department, and others, would give bad
references and badmouth Relators to potential employers.
54. After the termination, in an effort to undermine any potential whistleblower case against Bethany Hospice and Bethany Coastal, Ava Best and Monica Jones tried to ferret out any employees who might
help Relators or provide them with information. They
would call employees in to talk to them and accuse the
employees of “talking to Debbie” or “talking to Jolie”
and then tell them they needed to “resign.” If they did
not chose to “resign,” Bethany Coastal management
would cut their hours and harass them until they quit.
Ms. Best fired at least one Bethany Coastal employee
for the false accusation that she had had contact with
Relators.
55. Then, in a final act of harassment and discrimination and to scare Relators from talking to the Government about Bethany Hospice, Ms. Best actually
provided information to Relators’ former boss at Spanish Oaks about who was helping them report that company to the Government for FCA violations. That person was immediately fired from Spanish Oaks—

71a
sending the message that Ms. Best would retaliate
against anyone involved in reporting FCA violations to
the Government and warning Relators not to do it to
Bethany Hospice.
56. Undermining the façade and the plethora of
made up excuses, the termination of Relators’ employment was not well planned because Bethany Coastal
management wanted to get Relators away from Bethany Hospice and Bethany Coastal before they could
gather evidence of false claims to give to the Government. After Relator Helmly, Bethany Coastal’s administrator on file with the state, was terminated, the
Claxton office went off the rails.
57. Ms. Best started with what she called an “interim clinical director,” who was an employee of Bethany Hospice Valdosta office. Of course, the interim
clinical director from Bethany Hospice in Valdosta did
not actually come in to the Claxton office every day.
Even when the “interim director” did come to the site,
she would arrive between 10:00-10:30 a.m. and then
leave by 1:00 or 2:00 p.m. Ms. Best later made the clinical director of the Bethany Hospice Douglas location,
Jeneen Cliett, the administrator for Bethany Coastal
(which is 1.5 hours away). After Ms. Cliett “became”
the administrator of Bethany Coastal, she remained
the director of the Douglas location, and she never visited the Claxton facility. She would merely “call in.”
Both of these actions are illegal. There must be an administrator on site all day every day.
58. Ms. Best also made Bridget Thornton the clinical director of Bethany Coastal, even though she was
the only RN working there, and she did not meet the
qualifications to be a clinical director. There are also
two LPNs that were then being used in place of RNs,

72a
so there was a chain reaction of regulatory violations
simply because Ms. Best was unprepared to fire her
administrator for protected activity.
59. While Relators were at Bethany Coastal, kickbacks were not the only thing they were investigating.
Ms. Best did not have a social worker with a master’s
degree in social work seeing patients. This is a prerequisite to billing for the visit. Relator Johnson was told
about this by the very person seeing the patients who
did not have her masters.
60. In addition, Ms. Best would discharge patients
if they were going into the hospital (also against regulations). An example is patient P in Savannah, Georgia. Relator Johnson was told this in person by the
nurse that had to meet patient P at the hospital to
have him sign revocation papers. Some of the patients
that went directly into the hospital and were also
picked up that very same day include IC, JP, HK, and
ST. Patient AQ also went to the doctor for aggressive
treatment, and Bethany Coastal did not pay for this
even though he was a full Medicaid patient. Ms. Best
also discharged patients once they ran out of their
Medicare payments. If they were on Medicaid, she
would keep them because they do not have a monetary
limit.
61. There are also issues of neglect and failure to
perform the services required by hospice. A patient by
the name of SB ended up dying unnecessarily due to
negligence on Bethany Coastal’s part of not treating a
urinary tract infection. TT is a patient who had passed
away two days before any nurse went out to check on
him. The neighbors actually found him as they had not
seen him out. It was said he had been dead for days,

73a
but because the nurse said he would not answer the
phone, she did not go by and check on him.
62. During their investigation of Medicare and
Medicaid fraud at Bethany Hospice and Bethany
Coastal, Relators gained intimate knowledge of Bethany Hospice’s and Bethany Coastal’s billing protocols
and operations. This familiarity apprised them to the
types of patients Bethany Hospice and Bethany
Coastal endeavored to put under service, who the primary referral sources for each entity were, and the
specific entities that reimbursed Bethany Hospice for
hospice services.
63. During their investigation, Relators confirmed
several facts with the former Clinical Director of Bethany Hospice (Douglas), Ms. Shanda Jowers including
that the referrals from the “Bethany Hospice doctors”
were Medicare and Medicaid and that Bethany Hospice billed the government for these patients. In her
capacity as Clinical Director, Ms. Jowers oversaw the
patient care operations of the Douglas office and acted
as a liaison with management staff, particularly Ms.
Ava Best and Ms. Jeneen Cliett. Ms. Jower’s position
necessarily apprised her to Bethany Hospice’s patient
and payor mix, and she shared this knowledge with
Relators. She confirmed for Relators that Bethany
Hospice’s Douglas facility received the vast majority of
its patient referrals from the “Bethany Hospice doctors.” She confirmed that Bethany Hospice’s policy
was to admit patients only if they had Medicare or
Medicaid coverage. She confirmed that she knew
about the fact that the patients referred by the “Bethany Hospice doctors” were Medicare and Medicaid and
that Bethany billed (and collected) for them from conversations with Ms. Best and Ms. Cliett both in

74a
management meetings and during day-to-day operations that Bethany Hospice. They also made it clear to
her that employees needed to ensure patients had
Medicare and Medicaid eligibility so that Bethany
Hospice could continue to receive money from these
government programs. If a patient did not have eligibility from a government program, Bethany Hospice
employee Robby Carr would work with the patient to
try and get them either Medicare or Medicaid coverage. Ms. Jowers confirmed for Relators that if that did
not work, the patients were not admitted, because
Bethany Hospice only admitted and billed for Medicare or Medicaid patients with eligibility.
64. During their investigation, Relators confirmed
several facts with the former Bethany Hospice community education representative, Robert Clements. As a
community education representative for Bethany Hospice, Mr. Clements had access to all of Bethany Hospice’s referral data, including information housed in
the Consolo program. In this capacity, he also received
referrals for Medicare and Medicaid beneficiaries from
the Bethany Hospice doctors Arnett, Sinclair, Harrell,
and Harper. Mr. Clements confirmed that every single
referral from these physicians was for a Medicare or
Medicaid beneficiary. Mr. Clements knew this because
each time he retrieved referrals from these physicians,
the physician orders and patient paperwork would denote the payor. During his employment with Bethany
Hospice (2014 through March 30, 2018), Mr. Clements
would tender his referrals from the “Bethany Hospice
doctors” to Ms. Tonya Smith (Bethany Hopice’s admissions coordinator) so that she could process them in
Consolo which would bill their per diem on a CMS
Form 1500. No patient was admitted to Bethany

75a
Hospice in Douglas until Ms. Smith certified that they
had Medicare eligibility and she logged the referral
source into Consolo. Mr. Clements confirmed with Ms.
Smith as well as Bethany Hospice’s Clinical Director
and Vice President, Ms. Jeneen Cliett, that Bethany
Hospice billed and received payment from the government for the “Bethany Hospice doctor” referrals. Ms.
Smith, Ms. Cliett, and Ms. Best were a core of the
Bethany Hospice billing apparatus. Ms. Best made
and the others executed the Bethany Hospice policy of
confirming a patient’s Medicare eligibility for hospice
care prior to admitting the patient and billing Medicare. Mr. Clements confirmed that he learned all this
information about billing and collecting from conversations with Ms. Smith, Ms. Cliett, and Bethany Hospice’s accountant, Elnita Ginn, who worked in Valdosta. Ms. Ginn also confirmed that Bethany Hospice
received payments from Medicare for referrals made
by Dr. Wheeler. Through conversations with Ms. Ginn,
Ms. Cliett, and Ms. Smith, Mr. Clements learned that
Bethany Hospice submitted and received payments for
hospice care claims for those patients referred by the
“Bethany Hospice doctors,” throughout his tenure
with Bethany Hospice. Mr. Clements has confirmed
many of Relators’ allegations regarding Bethany Hospice’s kickback scheme, including that Bethany Hospice receives nearly all of its referrals from area physicians with a financial interest in Bethany Hospice,
that these physicians always referred every Medicare
and Medicaid patient to Bethany Hospice that they
controlled, and that Bethany Hospice billed government health programs for the services rendered to
Medicare and Medicaid patients referred by these physicians.

76a
65. As part of their investigation, Relators have
accessed Bethany Hospice’s and its physician-owners’
aggregate billing and referral data for Medicare beneficiaries. This information only tracks Medicare patients for which Bethany Hospice has billed Medicare
and received payment. The only patients tracked from
doctor referrals to Bethany Hospice are Medicare patients that have been billed and collected. The data details how many Medicare referrals a particular physician makes to a particular hospice facility, as well as
how many total patient days the hospice received Medicare reimbursement for as a result of that physician’s
referrals.
66. As stated, Bethany Hospice is a for-profit hospice enrolled in the Medicare program. Bethany Hospice derives nearly all of its revenue from the Medicare
program monies. In 2014, Bethany Hospice provided
hospice services to 312 Medicare beneficiaries for a total of 24,791 patient days. In exchange for providing
these services, Medicare reimbursed Bethany Hospice
$3,318,134. In 2015, Bethany Hospice received
$4,529,028.23 for Medicare services rendered to 422
Medicare beneficiaries for a total of 33,077 total patient days. In 2016, Bethany Hospice provided hospice
services for 510 Medicare beneficiaries for which it received a total Medicare payment amount of $6,483,714
for 47,126 total patient days.
67. All of Bethany Hospice’s Medical Directors
and part-owner physicians referred the vast majority
of their Medicare patients to Bethany Hospice. In fact,
from Medicare claims data, Bethany Hospice’s top
three referral sources from the 4th Quarter of 2016
through the 3rd quarter of 2018 are Dr. Sinclair (97 total Medicare patients referred to Bethany Hospice),

77a
Dr. Harper (91 total Medicare patients referred to
Bethany Hospice), and Dr. Harrell (68 total Medicare
patients referred to Bethany Hospice). Dr. Arnett—
who is preceded only by the other “Bethany Hospice
doctors”, the head of the hospitalist program at CRMC,
and a cardiologist affiliated with CRMC— ranked
sixth highest in referral sources with 40 total Medicare patient referrals to Bethany Hospice over the
same period.
68. From the 3rd Quarter of 2016 through the 2nd
quarter of 2018, Dr. Harrell treated at least 76 Medicare hospice patients. Of these 76 patients, Dr. Harrell
referred 62 to Bethany Hospice, making his referral
rate to Bethany Hospice (i.e., the percentage of referrals to a specific provider out of total referrals made)
81.6%. Bethany Hospice received reimbursement for
Medicare for 6,513 patient days as a result of these referrals. Notably, Dr. Harrell referred at least eight of
the remaining fourteen patients to providers in counties where Bethany Hospice does not operate. Thus, by
adjusting for patients that Dr. Harrell could not have
referred to a Bethany Hospice facility and unenumerated referrals, his referral rate to Bethany Hospice is
100%.
69. Similarly, Dr. Arnett referred at least 63 Medicare beneficiaries for hospice services from the 3rd
Quarter of 2016 through the 2nd Quarter of 2018. Of
these 63 patients, 38 were referred to Bethany Hospice
for a total of 4,155 patient days billed to Medicare. Dr.
Arnett referred the vast majority of his remaining patients to providers operating in counties where Bethany Hospice does not own a facility. When adjusting
for these patients and unenumerated referrals, Dr.
Arnett’s referral rate to Bethany Hospice is 100%.

78a
70. From the 3rd Quarter of 2016 through the 2nd
Quarter of 2018, Dr. Harper referred at least 112 Medicare hospice patients to various providers. Of these
112 patients, 57 were referred to Bethany Hospice for
a total of 2,763 patient days billed to Medicare. When
adjusting for patients referred to counties lacking a
Bethany Hospice presence and unenumerated referrals, Dr. Harper’s referral rate to Bethany Hospice is
100%.
71. From the 3rd Quarter of 2016 through the 2nd
quarter of 2018, Dr. Sinclair referred at least 159 Medicare beneficiaries to various hospice destinations for
a total of 5,779 patient days billed to Medicare. Over
this period of time, Dr. Sinclair referred 96 patients to
Bethany Hospice. When adjusting for referrals made
to providers operating in counties where Bethany Hospice does not and unenumerated referrals, Dr. Sinclair’s referral rate to Bethany Hospice is 100%.
72. One of the key protocols at Bethany Hospice
and Bethany Coastal was to immediately check all potential patients for Medicare coverage. Ava Best insisted that Bethany Hospice and Bethany Coastal patients have either Medicare or Medicaid coverage. This
is one of the ways Relators found out about the issues
concerning Presbyterian Hospice.
73. As a marketer, part of Relator Johnson’s job
duties entailed visiting patients in their homes and
collecting their social security numbers to see if these
patients had any Medicare eligibility left. In doing so,
Relator Johnson interacted with administration at
every Bethany Hospice and Bethany Coastal location.
Billing personnel would take the information from the
marketers and run it through the system to assure
coverage before a patient could be admitted. This

79a
protocol was heavily emphasized in Relator Johnson’s
mandatory marketer training. Her trainer was Bethany Hospice employee Robert Clements in Douglas,
Georgia.
74. During this training, Mr. Clements and Relator Johnson also visited the offices of the “Bethany
Hospice doctors” for Bethany Hospice in Douglas,
which is where she picked up a great deal of information about the kickback/referral process. Mr. Clements explained to Relator Johnson that Bethany Hospice had doctors with financial ties to Bethany Hospice
who would refer all their patients to Bethany Hospice.
During these visits, Mr. Clements would ask the
“Bethany Hospice doctors” if they had any patients
that needed to be referred to Bethany Hospice and
whether these patients were covered by Medicare or
Medicaid. Drs. Arnett, Sinclair, Harper, and Harrell
provided Mr. Clements with names of patients eligible
for Medicare and Medicaid coverage.
75. Afterwards, Mr. Clements and Relator Johnson would visit those patients referred by the “Bethany Hospice doctors” in the patients’ homes. Mr. Clements explained to Relator Johnson that she needed to
collect each patient’s social security number. This allowed Ms. Best to see whether a patient had previously been under hospice, how long they had been under hospice, and their certification period. Mr. Clements told Relator Johnson that Bethany Hospice and
Bethany Coastal collected this information to determine if patients were eligible for Medicare and Medicaid coverage. He further explained that Bethany Hospice and Bethany Coastal’s unwritten policy was to acquire more Medicare patients because “Medicare paid
more.” Relator Johnson also found out about the

80a
percentage of the census that came from referrals
tainted by kickbacks and that all the patients were
billed to the Government until their benefits ran out.
76. Relator Johnson had access to the census reports documenting each site’s patients and which
payor paid for the patients’ care. These reports revealed that federal health care programs covered the
hospice expenses for a substantial majority of patients
(100% or nearly 100%). Relator Johnson also had the
opportunity to meet with billers at the Bethany Hospice Valdosta office. These individuals informed her
that they too entered patient’s social security information into the billing system to make sure the patient was eligible for Medicare coverage before putting
the patient under service. From all of her contacts with
billers, Relator Johnson was able to find out about the
billing and collection from Medicare of the illicit referrals and the submission of bills for other inappropriate
patients.
77. As the administrator at Bethany Coastal, Relator Helmly had access to all of the billing information and census reports for every Bethany office. In
fact, Relator Helmly had full access to all billing and
referral data for all patients at Bethany Hospice and
Bethany Coastal. She also attended meetings with Ms.
Best where Bethany Hospice and Bethany Coastal
management discussed site productivity and census
numbers for all Bethany Hospice’s and Bethany
Coastal’s sites. Through these sources, Relator Helmly
learned that all or nearly all of Bethany Hospice’s patients put under service received coverage from Medicare and Medicaid. She shared this knowledge with
Relator Johnson. In investigating this case, Relators
found that all (or nearly all) the hospice patients

81a
referred by Drs. Arnett, Sinclair, Wheeler, Harper,
and Harrell, were Medicare or Medicaid patients and
that Bethany Hospice submitted claims to the Government for the per diem payments for those patients
knowing that they were false. The patients that were
illegally referred (that Relators found) were not only
billed to the Government, but also paid for by the Government.
78. Instead of treating Bethany Coastal as a separate corporate entity, Ms. Best and Mr. Mackey ran
it as if it were another facility office of Bethany Hospice. Thus, while Bethany Hospice did not officially
employ Relators, the significant overlap in personnel,
resources, and operations between Bethany Hospice
and Bethany Coastal effectively made Relators corporate insiders of Bethany Hospice.
79. As a preliminary matter, Bethany Hospice and
Bethany Coastal do not even attempt to differentiate
between themselves when advertising hospice services
to the general public. The two corporate entities advertise their services from the same website, “bethanyhospice.com.” The website informs visitors that
“[Bethany Hospice] has five locations throughout
South Georgia.” Similarly, Bethany Hospice’s non-discrimination policy and notice of privacy practices fail
to draw a distinction between Bethany Hospice and
Bethany Coastal. Instead, both policies refer to the
provider as “Bethany Hospice.”
80. The same cadre of individuals shared control
and ownership over both Bethany Hospice and Bethany Coastal. At various times, Ava Best has served as
the President and CEO of both Bethany Hospice and
Bethany Coastal. Similarly, Mac Mackey has served
as CFO of both Bethany Hospice and Bethany Coastal.

82a
Ms. Best and Mr. Mackey (individually and through
his holding company ECM Coastal, LLC) both own
substantial investment interests in Bethany Hospice
and Bethany Coastal, as do Drs. Richard Wheeler and
John Arnett. Dr. Arnett serves as the only other manager of Bethany Coastal, and Dr. Wheeler is the only
other manager for Bethany Hospice. Relator Helmly
attended joint leadership meetings where Bethany
Hospice and Bethany Coastal site productivity and
census numbers were discussed.
81. Bethany Hospice and Bethany Coastal commingled funds and assets without properly accounting
for each corporate entity’s separate use. For instance,
all of the offices across both Bethany Hospice and
Bethany Coastal used the same product license for its
hospice practice management software, Consolo. Employees from Bethany Coastal could access information on patients receiving hospice care at any of the
Bethany Hospice offices, and vice versa. For instance,
marketers at Bethany Coastal could access all of the
physician notes entered by other marketing representatives employed by Bethany Hospice. For the first four
months that Relator Johnson worked at Bethany
Coastal, she had to enter Bethany Coastal’s information manually into the Consolo program when uploading her marketing pieces because the program did
not have presets for Bethany Coastal. It only had presets for Bethany Hospice.
82. Two company cars owned by Bethany Hospice
were driven up from Valdosta to Claxton to be used by
the Bethany Coastal marketers. Relator Johnson
drove one such car. Ms. Best had outfitted the car with
GPS so a Bethany Hospice employee in Valdosta could

83a
track the movements of the Bethany Coastal employees.
83. Ms. Best also sent extra office equipment
owned by Bethany Hospice to Bethany Coastal without charging Bethany Coastal. This office equipment
included filing cabinets, desks, and office supplies.
84. Marketers like Relator Johnson received prepaid company cards to subsidize their gas and meal
expenses incurred while in the field. The card issued
to Relator Johnson read “Bethany Hospice,” suggesting that the card connected to a Bethany Hospice account rather than a Bethany Coastal account.
85. Bethany Hospice issued Bethany Coastal employees company cell phones. These phones had a 223
area code because Bethany Hospice’s operations were
centrally located in Valdosta, Georgia. Of note, the
area code for Claxton, Georgia is 912. Bethany Hospice
and Bethany Coastal also shared the same email
server. All employees’ email addresses featured the
same domain name “@bethanyhospice.com.”
86. Ms. Best routinely sent Bethany Hospice employees to work at Bethany Coastal without contracting out their services so that she could avoid hiring
staff to work at Bethany Coastal. Starting in May 2015
and continuing on and off throughout Relators’ tenure
at Bethany Coastal, Ms. Best sent a nurse, several social workers, and the office chaplain from Bethany
Hospice’s Douglas office to work at Bethany Coastal
despite the fact that these individuals were employed
and paid by Bethany Hospice.
87. In the wake of Ms. Best’s decision to terminate
Relators’ employment for engaging in protected activity, Ms. Best named a Bethany Hospice employee at

84a
the Valdosta office the “Interim Clinical Director” of
Bethany Coastal. Later, Ms. Best named Jeneen Cliett, an employee of Bethany Hospice and the Clinical
Director of its Valdosta office, the Administrator of
Bethany Coastal.
88. Bethany Hospice and Bethany Coastal shared
common business departments. Despite only being
employed by Bethany Hospice, Monica Jones served as
the Head of Quality Assurance for both Bethany Hospice and Bethany Coastal. Only one human resources
department existed for the two companies.
89. Ms. Best operated both Bethany Hospice and
Bethany Coastal from a singular location in Valdosta,
Georgia. When Relator Johnson needed to have her
company card reloaded (it had a $200 limit), she would
call Ms. Best in Valdosta, and Ms. Best would place
another $200 on the card. Bills submitted by third parties to Bethany Coastal often fell into delinquency in
part because the third parties sent the bill to Bethany
Coastal’s office instead of Bethany Hospice’s headquarters in Valdosta. For instance, after Ms. Best terminated Relators’ employment with Bethany Coastal,
Joe Lucky, the Administrator for Eagle Health and Rehabilitation of Statesboro, Georgia, called Relator
Johnson regarding a patient bill for room and board
that had not been paid by Bethany Coastal despite
having been sent to its physical address. Relator Johnson informed Ms. Lucky that she would need to submit
the bill to Bethany Hospice’s Valdosta office because
Ms. Best worked from there.
90. Bethany Hospice and Bethany Coastal also
share the same principal office address at P.O. Box
4720, Valdosta, Georgia, 31604, USA.

85a
91. Bethany Hospice did not promulgate policies
and/or protocols to its staff. To the extent it did, the
same policies and/or protocols applied universally
across Bethany Hospice and Bethany Coastal. However, employees at Bethany Coastal received and were
beholden to the Bethany Hospice Employee Handbook.
Additionally, all marketing forms given to Relator
Johnson during the first half of her tenure with Bethany Coastal referred to the hospice provider as Bethany Hospice and only displayed contact information
for the Valdosta office. Because Bethany Hospice and
Bethany Coastal were essentially the same company
and shared all resources and management, Relators
knew as much about Bethany Hospice as any other
“insider.”
92. All of the conduct alleged in this Complaint is
alleged to have occurred “knowingly” meaning with
reckless disregard, as that is defined in the False
Claims Act, 31 U.S.C. § 3729 and related case law.
FIRST CAUSE OF ACTION
(False or Fraudulent Claims)
(False Claims Act 31 U.S.C. § 3729(a)(1)(A))
(Georgia False Medicaid Claims Act O.C.G.A. § 49-4168.1(a)(1))
93. Relators hereby incorporate and re-allege paragraphs 9-19, 22-23, 26-46, 54, and 56-92 as if fully set
forth herein.
94. As set forth above, Defendant Bethany Hospice and Palliative Care, LLC, by and through its
agents, officers, and employees, knowingly presented,
or caused to be presented to the United States Government and the State of Georgia numerous false or
fraudulent claims for payment or approval, in

86a
violation of the False Claims Act, 31 U.S.C.
§ 3729(a)(1)(A) and/or the Georgia False Medicaid
Claims Act O.C.G.A. § 49-4-168.1(a)(1).
95. Due to Defendant Bethany Hospice’s conduct,
the United States and the State of Georgia have suffered substantial damages.
96. The United States and the State of Georgia are
entitled to treble damages based upon the amount of
damage sustained by them in an amount that will be
proven at trial.
97. The United States and the State of Georgia are
entitled to the largest civil penalty allowed by law for
each of the false claims.
98. Relators are also entitled to their attorney’s
fees and litigation expenses.
SECOND CAUSE OF ACTION
(False Statements)
(False Claims Act 31 U.S.C. § 3729(a)(1)(B))
(Georgia False Medicaid Claims Act O.C.G.A. § 49-4168.1(a)(2))
99. Relators hereby incorporate and re-allege paragraphs 19, 22-23, 26-46, 54, and 56- 92 as if fully set
forth herein.
100. As set forth above, Defendant Bethany Hospice and Palliative Care, LLC, by and through its
agents, officers, and employees, knowingly made,
used, or caused to be made or used, a false record or
statement material to a false or fraudulent claim, in
violation of the False Claims Act, 31 U.S.C.
§ 3729(a)(1)(B) and or the Georgia False Medicaid
Claims Act, O.C.G.A. § 49-4- 168.1(a)(2).

87a
101. Due to Defendant Bethany Hospice’s conduct, the United States and the State of Georgia have
suffered substantial damages.
102. The United States and the State of Georgia
are entitled to treble damages based upon the amount
of damage sustained by them in an amount that will
be proven at trial.
103. The United States and the State of Georgia
are entitled to the largest civil penalty allowed by law
for each of the false claims.
104. Relators are also entitled to their attorney’s
fees and litigation expenses.
THIRD CAUSE OF ACTION
(Retaliation Against Relators)
(False Claims Act-31 U.S.C. § 3730(h))
(Georgia False Medicaid Claims Act O.C.G.A. § 49-4168.4)
105. Relators hereby incorporate and re-allege
paragraphs 9-92 as if fully set forth herein.
106. Defendant Bethany Coastal directly violated
Relators’ rights pursuant to 31 U.S.C. § 3730(h) and
O.C.G.A. § 49-4-168.4 by retaliating against them for
lawful acts done by them in furtherance of efforts to
stop one or more violations alleged in this action and
other protected activities.
107. As a result of Defendant’s actions, Relators
have suffered damages in an amount to be shown at
trial.
108. Relators are entitled to two times back pay,
interest, (Relator Johnson) reinstatement, and make
whole damages as well as all attorney’s fees and litigation expenses.

88a
PRAYER FOR RELIEF
WHEREFORE, Relators Jolie Johnson and the Estate of Debbie Helmly pray for judgment:
a.

awarding the United States and the State of Georgia
damages sustained by them for each of the false
claims;

b.

awarding the United States and the State of Georgia
treble damages sustained by them for each of the
false claims;

c.

awarding the United States and the State of Georgia
the largest civil penalty allowed by law for each of the
false claims;

d.

awarding Relators 30% of the proceeds of this action
and any alternate remedy or the settlement of any
such claim;

e.

awarding Relators two times back pay, interest, (Relator Johnson) reinstatement, and make whole damages resulting from retaliation;

f.

awarding Relators their litigation costs and reasonable attorney’s fees; and

g.

granting such other relief as the Court may deem just
and proper.
Respectfully submitted,
/s/ Mike Bothwell
Mike Bothwell
Ga Bar No. 069920
Mike@WhistleblowerLaw.com
Attorney for Relators

89a
APPENDIX D
________________________________
Federal Rule of Civil Procedure 9 provides in
relevant part:
Rule 9. Pleading Special Matters
*

*

*

(b) Fraud or Mistake; Conditions of Mind. In alleging fraud or mistake, a party must state with particularity the circumstances constituting fraud or mistake. Malice, intent, knowledge, and other conditions
of a person’s mind may be alleged generally.
*

*

*

The False Claims Act provides in relevant part:
31 U.S.C. § 3729. False claims
(a) Liability for Certain Acts.—
(1) In general.—Subject to paragraph (2), any person who—
(A) knowingly presents, or causes to be presented, a false or fraudulent claim for payment or
approval;
(B) knowingly makes, uses, or causes to be
made or used, a false record or statement material
to a false or fraudulent claim;
(C) conspires to commit a violation of subparagraph (A), (B), (D), (E), (F), or (G);
*

*

*

is liable to the United States Government for a civil
penalty of not less than $5,000 and not more than
$10,000, as adjusted by the Federal Civil Penalties

90a
Inflation Adjustment Act of 1990 (28 U.S.C. 2461 note;
Public Law 104-410 1), plus 3 times the amount of damages which the Government sustains because of the
act of that person.
*

*

*

The Anti-Kickback Statute provides in relevant part:
42 U.S.C. § 1320a-7b. Criminal penalties for acts
involving Federal health care programs
*

*

*

(b) Illegal remunerations
(1) Whoever knowingly and willfully solicits or receives any remuneration (including any kickback,
bribe, or rebate) directly or indirectly, overtly or covertly, in cash or in kind—
(A) in return for referring an individual to a
person for the furnishing or arranging for the furnishing of any item or service for which payment
may be made in whole or in part under a Federal
health care program, or
(B) in return for purchasing, leasing, ordering,
or arranging for or recommending purchasing, leasing, or ordering any good, facility, service, or item
for which payment may be made in whole or in part
under a Federal health care program,
shall be guilty of a felony and upon conviction thereof,
shall be fined not more than $100,000 or imprisoned
for not more than 10 years, or both.
(2) Whoever knowingly and willfully offers or pays
any remuneration (including any kickback, bribe, or
1

So in original. Probably should read “Public Law 101-410”.

91a
rebate) directly or indirectly, overtly or covertly, in
cash or in kind to any person to induce such person—
(A) to refer an individual to a person for the furnishing or arranging for the furnishing of any item
or service for which payment may be made in whole
or in part under a Federal health care program, or
(B) to purchase, lease, order, or arrange for or
recommend purchasing, leasing, or ordering any
good, facility, service, or item for which payment
may be made in whole or in part under a Federal
health care program,
shall be guilty of a felony and upon conviction thereof,
shall be fined not more than $100,000 or imprisoned
for not more than 10 years, or both.
*

*

*

